APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Sixth Circuit, Hurt v. Commerce
Energy, Inc., No. 18-4058 (Aug. 31, 2020) .. App-1
Appendix B
Order,
United
States
Court
of
Appeals for the Sixth Circuit, Hurt
v. Commerce Energy, Inc., No. 18-4058
(Sept. 30, 2020) .......................................... App-55
Appendix C
Opinion & Order, United States District
Court for the Northern District of Ohio,
Hurt v. Commerce Energy, Inc.,
No. 12-cv-00758 (Mar. 10, 2015) ............... App-57
Appendix D
Relevant Statutory Provisions and
Regulations ................................................ App-94
29 U.S.C. § 203(k) ...................................... App-94
29 U.S.C. § 213(a) ...................................... App-94
29 U.S.C. § 216 .......................................... App-99
29 C.F.R. § 541.500.................................. App-105
29 C.F.R. § 541.501.................................. App-106

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________
No. 18-4058
________________
DAVINA HURT AND DOMINIC HILL, individually and on
behalf of all others similarly situated,
v.

Plaintiffs-Appellees,

COMMERCE ENERGY, INC., doing business as Just
Energy doing business as Commerce Energy of Ohio,
Inc.; JUST ENERGY MARKETING CORP.; JUST ENERGY
GROUP, INC.,
Defendants-Appellants.
________________
Argued: Oct. 24, 2019
Decided and Filed: Aug. 31, 2020
________________
Before: CLAY, STRANCH, MURPHY,
Circuit Judges.
________________
OPINION
________________
JANE B. STRANCH, Circuit Judge. The Fair
Labor Standards Act provides minimum wage and
overtime protections to a broad range of employees.
Davina Hurt and Dominic Hill brought claims for
themselves and others alleging that their positions are

App-2
covered by the protections of the FLSA and parallel
provisions of Ohio law. They challenge their
designation by Defendants as “outside salesman,” a
category that is “exempt” from the FLSA, which
means that their position is not covered by the
protections of the Act. A trial was held and the jury
found that Plaintiffs were not exempt outside
salespeople. Just Energy appeals that determination
and challenges pre- and post-trial rulings made by the
district court, certain instructions given to the jury,
and evidentiary rulings made by the court. For the
reasons explained below, we AFFIRM.
I.

BACKGROUND

A. Factual Background
Plaintiffs worked for a group of affiliated energy
supply companies that provide electric power and
natural gas to residential and commercial customers
in the United States and internationally, collectively
referred to as Just Energy. Just Energy operates in
the U.S. through licensed subsidiaries and is the
parent company of a number of businesses, including
Defendants Commerce Energy, Inc. and Just Energy
Marketing Corp. Commerce Energy, Inc. is the
licensed subsidiary in Ohio, California, Georgia,
Maryland, Massachusetts, New Jersey, and
Pennsylvania, and Just Energy Marketing Corp. hired
Plaintiffs to go door-to-door to solicit customers on
behalf of Commerce Energy.
Plaintiffs worked as door-to-door solicitors and
spent most of their working hours in the field seeking
to convince customers to buy electricity and natural
gas products. Just Energy paid them exclusively on a
commission basis without paying overtime or

App-3
minimum wage, and the actual hours and pay for each
worker varied. Plaintiffs were not required to have
any sales experience or level of education; they were
required only to go through an orientation and a sales
training course. Plaintiffs also signed Just Energy’s
independent contractor agreements (the “Agreement”)
that set out confidentiality, non-disparagement, nonexclusive, and non-compete clauses.
Plaintiffs were typically required to attend daily
morning meetings at Just Energy’s facility before
going into the field. They were driven to the field in
teams led by Just Energy supervisors; any work
breaks were controlled by those supervisors. The
Agreement states that there are no minimum number
of hours or minimum number of contracts that must
be solicited. Some Plaintiffs testified they were
required to work on specific days and hours, and would
be reprimanded if they did not work as specified.
Plaintiffs could not choose where they worked; they
were directed to certain neighborhoods by the
supervisors and given maps with highlighted streets
showing where they were required to work for the day.
When in the field, Plaintiffs were mandated to
adhere to a dress code, including wearing a shirt that
properly and prominently displays the company’s
name and logo, and were subject to rules set out in a
contractor compliance matrix, which lists the feedback
potential customers might give about their
interactions with the workers and the disciplinary
consequences for such feedback. For their solicitation,
Plaintiffs were instructed to follow a script verbatim.
When a potential customer became interested in Just
Energy’s products, Plaintiffs filled out a “customer

App-4
agreement” and obtained the customer’s signature.
Some Plaintiffs referred to this as an “application”; it
was non-binding and did not finalize the transaction.
Plaintiffs were directed to place a verification call
from the customer’s premises for a third party to
confirm that the customer entered into the agreement
voluntarily and with full understanding of its terms.
Plaintiffs had to initiate the call to the third-party
verifier using the customer’s telephone and were
required to leave the premises before the customer
spoke to the verifier. Plaintiffs were not allowed to
return or speak to the customer after the call. This was
an important requisite of the job: the compliance
matrix reserves the most severe consequence of
termination for a solicitor who remains present at the
consumer’s premise during the verification call, uses
his or her cell phone to conduct the call, or returns to
the customer’s premises within seven days after the
call. The Ohio Public Utilities Commission (PUCO)
requires procedures for door-to-door energy solicitors,
including independent third-party verification for 50%
of customers, but the universal verification process for
Just Energy’s customers was required as part of a
2010 settlement agreement between the company and
PUCO.
The sale was not final after the third-party
verification call. Instead, the customers went through
a credit check, and after that, Just Energy could
approve the application and finalize the sale or choose
to reject the application. The signed customer
agreement specifies that the contract is conditional
upon Just Energy’s acceptance, at its sole discretion.
Just Energy had “unfettered discretion to reject any

App-5
energy contract submitted” by Plaintiffs. Some
applications were rejected for failed credit checks, but
Plaintiffs frequently were not told why applications
were rejected and their commissions not paid.
Plaintiffs had no role in Just Energy’s decisionmaking, and because their contact with the customer
ended after they had to leave the premises, they were
not allowed to engage in customer service or address
any customer concerns—customers were instructed to
call a separate customer service line with any
questions. Trial testimony indicates that Just Energy
exercised its discretion to reject applications
frequently. Though a satisfactory third-party
verification call and a successful credit check were
essential, ultimately approval depended on the
exercise of discretion by Just Energy and was required
before an application generated by Plaintiffs became
final and they could receive and retain their
commission.
Plaintiffs submitted documentary evidence of
compensation for members of the class. Exhibits in the
record include two spreadsheets that summarize the
total compensation of Plaintiffs who worked varying
lengths of time between 2010 and 2014. Of the 3,840
total individuals with compensation data available in
the spreadsheets, 214 made no money at all. 69% of
the individuals made under $1,000 in total
compensation and 62% of the individuals made under
$500.
Individual plaintiffs testified to their earnings.
One made only $1,200 over three or four months, while
another made only $196 while working 12- to 14-hour
days, six to seven days a week for about two months.

App-6
Other plaintiffs earned nothing—one never received a
commission even after working six to seven days a
week for at least a month and turning in three to five
signed customer agreements to Just Energy every day,
and another earned nothing even after working long
days for two weeks, knocking on over 100 doors each
day. Yet another worked 11-hour days, six days a week
for a month, and testified that he “only made enough
really to pay for the uniform” and that he “didn’t even
get any check stubs or anything” from Just Energy.
B. Procedural History
Plaintiffs filed a complaint in 2012 alleging that
Just Energy misclassified its door-to-door solicitors as
outside salespeople in order to qualify for an
exemption from the Fair Labor Standards Act (FLSA)
and the Ohio Minimum Fair Wage Standards Act
(OMFWSA). Plaintiffs sought to certify the FLSA
claim as a collective action and the OMFWSA claim as
a class action. In 2013, the district court granted
conditional certification of the FLSA collective action
to workers who performed services in the last three
years for Commerce Energy, Just Energy’s licensed
subsidiary operating in Ohio; it granted class
certification for the OMFWSA claim to Ohio workers
who performed services for Commerce Energy since
March 2009. The court denied Just Energy’s summary
judgment motion, and in September 2014, the case
went to a bifurcated jury trial on the question of Just
Energy’s liability.
Prior to trial, Just Energy filed a motion in limine
to exclude evidence of Plaintiff’s compensation; the
district court denied the motion and admitted
compensation evidence over Just Energy’s objection.

App-7
At trial, over Just Energy’s objection, the district court
instructed the jury on the law governing the outside
sales exemption to the wage and hour requirements of
the FLSA. The court asked the jury “to consider the
extent to which the employee has the authority to bind
the company to the transaction at issue” and whether
“the employer retains and/or exercises discretion to
accept or reject any transactions for reasons that are
unrelated to regulatory requirements applicable to the
industry.”
The jury found Just Energy liable for minimum
wage and overtime pay under the FLSA and the
OMFWSA on the basis that Plaintiffs were not exempt
outside salespeople. The district court denied Just
Energy’s motions for directed verdict and judgment as
a matter of law. Just Energy now challenges the denial
of summary judgment, directed verdict, and judgment
as a matter of law, as well as the jury instructions and
the admission of compensation evidence at trial. Just
Energy contends that Plaintiffs were exempt from the
FLSA and the OMFWSA under the outside sales
exemption as a matter of law.
II. ANALYSIS
A. Standard of Review for
Judgment and Trial Motions

Summary

Appeals of summary judgment denials after a full
trial on the merits are generally precluded, though the
Supreme Court has acknowledged a possible exception
for “‘purely legal’ issues capable of resolution ‘with
reference only to undisputed facts.’” Ortiz v. Jordan,
562 U.S. 180, 188-190 (2011). To determine whether
Plaintiffs were outside salespeople, we need to
consider not just the statute and regulations, but also

App-8
facts such as the details of Plaintiffs’ door-to-door
soliciting activities and the process of making and
finalizing sales.
The dissent bases its review on the premise that
the facts here are “largely undisputed” and from that
conclusion argues that whether Plaintiffs were outside
salespeople is a purely legal question for the district
court and not the jury. It is true that how workers
spend their working time is a question of fact, and
“whether their particular activities exclude[] them
from [FLSA protections] is a question of law.” Icicle
Seafoods, Inc. v. Worthington, 475 U.S. 709, 714
(1986). Whether such a mixed question of law and fact
is treated as a legal question or a factual question
depends “on whether answering it entails primarily
legal or factual work.” U.S. Bank Nat’l Ass’n v. Vill. at
Lakeridge, LLC, 138 S. Ct. 960, 967 (2018).
At the summary judgment stage there existed a
number of disputed issues of material fact about the
relationship between Plaintiffs and Defendants,
including the level of supervision and independence
Plaintiffs had in the field, the particular requirements
on work hours, breaks, assignments, and solicitation
locations, and the sales completion procedures of
Defendants. Determining whether Plaintiffs were
exempt requires findings on these relevant disputed
facts and is therefore a question properly before the
jury. See, e.g., McDermott Int’l, Inc. v. Wilander, 498
U.S. 337, 356 (1991); Lilley v. BTM Corp., 958 F.2d
746, 750 n.1 (6th Cir. 1992). The question presented is
not a purely legal issue capable of resolution with
reference only to undisputed facts as noted in Ortiz.

App-9
Review on appeal of the district court’s denial of
summary judgment is not appropriate.
We review de novo the denial of Just Energy’s
motions for judgment as a matter of law and directed
verdict based on the outside sales exemption. Finn v.
Warren County, 768 F.3d 441, 450 (6th Cir. 2014).
“The motion may be granted only if in viewing the
evidence in the light most favorable to the non-moving
party, there is no genuine issue of material fact for the
jury, and reasonable minds could come to but one
conclusion, in favor of the moving party.” Loesel v. City
of Frankenmuth, 692 F.3d 452, 461 (6th Cir. 2012)
(quoting Radvansky v. City of Olmsted Falls, 496 F.3d
609, 614 (6th Cir. 2007)).
B. Outside Sales Exemption
Plaintiffs brought minimum wage and overtime
claims under the FLSA and overtime claims only
under the OMFWSA. The OMFWSA is a “general law
involving the concern of the state for all of its citzens”
that requires “major employers in Ohio, public and
private,” to pay minimum wages and overtime pay for
certain types of employees. Wray v. City of Urbana,
440 N.E.2d 1382, 1383 (Ohio Ct. App. 1982). For the
purposes of this appeal, we need only analyze the
FLSA claims because the OMFWSA incorporates the
FLSA’s exemptions. Ohio Rev. Code § 4111.03. The
Ohio law “parallels the FLSA,” and courts therefore
“approach the issues raised on appeal in a unitary
fashion.” Douglas v. Argo-Tech Corp., 113 F.3d 67, 69
n.2 (6th Cir. 1997).
The FLSA contains an exemption from its
overtime and minimum wage protections for workers
“employed . . . in the capacity of outside salesman.” 29

App-10
U.S.C. § 213(a)(1). To show that workers are exempt
from FLSA protections, “the employer bears not only
the burden of proof, but also the burden on each
element of the claimed exemption.” Martin v. Indiana
Michigan Power Co., 381 F.3d 574, 578 (6th Cir. 2004)
(citing Douglas, 113 F.3d at 70).
Our review of the applicability of this FLSA
exemption is governed by the statutory language,
Department of Labor (DOL) regulations, caselaw, and
particular facts of the case. The Supreme Court has
provided guidance on how courts are to evaluate this
exemption: “the statute’s emphasis on the ‘capacity’ of
the employee counsels in favor of a functional, rather
than a formal, inquiry, one that views an employee’s
responsibilities in the context of the particular
industry in which the employee works.” Christopher v.
SmithKline Beecham Corp., 567 U.S. 142, 161 (2012).
Thus, we look to the nature of the industry as well as
the particulars of the workplace in which the
employees perform their services.
The statute employs but does not specifically
define the term “outside salesman” (or salesperson),
but courts look to how the term has been “defined and
delimited from time to time by regulations of the
[Department of Labor].” 29 U.S.C. § 231(a)(1); see also
Christopher, 567 U.S. at 147. The DOL has issued
three regulations relevant to the “outside sales”
exemption, 29 C.F.R. § 541.500, 29 C.F.R. § 541.501,
and 29 C.F.R. § 541.503. Section 541.500 defines an
outside salesperson as someone “customarily and
regularly engaged away from the employer’s place or
places of businesses,” whose primary duty is either 1)
“making sales” or 2) “obtaining orders or contracts for

App-11
services.” Section 541.501 further clarifies the
definition of “making sales” and “obtaining orders or
contracts for services,” and Section 541.503
distinguishes exempt promotional work of outside
salespeople from non-exempt promotional work
incidental to sales made by someone else.
In Christopher, the Supreme Court summarized
the statute and DOL regulations: “[A]n outside
salesman is any employee whose primary duty is
making any sale, exchange, contract to sell,
consignment for sale, shipment for sale, or other
disposition.” 567 U.S. at 148. The definition of “sale” is
broad, and the list of transactions defining a “sale” in
the regulations represents “an attempt to
accommodate industry-by-industry variations in
methods of selling commodities.” Id. at 163-64. The
Court considered guidance on the scope of the
exemption in DOL reports and the preamble to the
latest regulations, cautioning that exempt status
should not depend on technicalities, such as “whether
it is the sales employee or the customer who types the
order into a computer system and hits the return
button” or whether the order is filled by a jobber
rather than directly by the employer. Id. at 149.
1.

Making Sales

We begin with whether Plaintiffs’ duties
constitute “making sales” as defined by 29 C.F.R.
§ 541.500. The procedures for solicitation that
Plaintiffs were required to follow started with offering
an application or customer agreement for Just
Energy’s services and then assisting potential
customers to complete the form. A signed agreement
did not finalize the transaction for Just Energy

App-12
products, but Plaintiffs were mandated to cease all
involvement in the process after the application was
prepared and the verification call was initiated.
Plaintiffs had to leave the customer’s premises at the
beginning of the call or face the possibility of
termination. From the other side, each customer had
to successfully complete the verification call and pass
a credit check. Even then, Just Energy retained, and
frequently exercised, ultimate discretion on whether
to finalize or refuse the application.
At trial, the jury found that Just Energy did not
satisfy its burden to demonstrate that Plaintiffs were
outside salespeople and found Defendants liable for
violating the FLSA and the OMFWSA. The district
court denied their motions for directed verdict and
judgment as a matter of law, finding that there was
sufficient evidence to support the jury’s determination
that the outside sales exemption did not apply to
Plaintiffs.
Just Energy argues that because Christopher’s
detailers were considered outside salespeople when
they obtained “non-binding commitments” from
physicians to prescribe their drugs, 576 U.S. at 147,
“authority to bind” should not be a component of the
test for “making sales.” But the Court found that the
pharmaceutical detailers in Christopher were exempt
from the FLSA because:
[o]btaining a nonbinding commitment from a
physician to prescribe one of respondent’s
drugs is the most that [the detailers] were
able to do to ensure the eventual disposition
of the products that respondent sells. This
kind of arrangement, in the unique regulatory

App-13
environment within which pharmaceutical
companies must operate, comfortably [fits
under the exemption].
Id. at 165 (footnote omitted and emphasis added).
Christopher addressed the specific parameters of work
in the unique regulatory environment of the
pharmaceutical industry. Its conclusion that
pharmaceutical detailers who cannot obtain binding
commitments are “making sales” does not necessarily
apply to other industries.
We, and other circuits, have recognized the
unique factual setting and the limitations of
Christopher in resolving outside sales exemption
claims in other industries. In Killion v. KeHE
Distributors, LLC, we explained the path followed by
the Court through the “unique regulatory
environment” governing pharmaceutical companies
and found Christopher to be of “limited import.” 761
F.3d 574, 583-84 (6th Cir. 2014). We reversed
summary judgment that had applied the exemption to
sales representatives of a food distributor because,
though the plaintiffs entered orders from individual
stores, the account managers controlled the volume
and placed restrictions on the orders allowed. Id. at
584. Similarly, the Fifth Circuit in Meza v. Intelligent
Mexican Mktg., Inc. noted that Christopher “offers
little guidance as to how a court determines if a driver
is a deliveryman or a salesman for FLSA purposes”
because it dealt with pharmaceutical sales
representatives. 720 F.3d 577, 586 (5th Cir. 2013).
The unique regulatory environment of the
pharmaceutical industry makes evident why
Christopher’s holding does not readily transfer to

App-14
other industries. Both drug companies and their
detailers are prohibited from selling prescription
drugs directly to patients: the ultimate discretion to
complete a sale rests elsewhere—with a prescribing
physician. Christopher, 567 U.S. at 150 & n.4. No such
regulatory environment prevents direct energy sales.
Just Energy sales had requirements of its own
making, such as third-party verifications for all
potential customers based on its individual settlement
agreement with Ohio PUCO, but no regulations
prohibited direct sales or required Just Energy itself
to retain full discretion to finalize a sale. Plaintiffs’
lack of authority to finalize the transactions is
significant when reviewing the facts under a
“functional, rather than formal, inquiry . . . in the
context of the particular industry in which the
employee works.” Id. at 161.
The fact that Just Energy retained discretion to
finalize the sale is not merely a technicality
immaterial to the analysis. Id. at 149. Plaintiffs’
customer agreements, sometimes referred to as
“applications,” were rejected frequently by Just
Energy, and Plaintiffs often were not told the reason
for the rejection, though it directly impacted if and
how much they were paid. Once the verification phone
call began, these Ohio Plaintiffs had no ability to
personally follow-up, answer questions and assuage
concerns, or confirm the transaction with the
customer. No regulatory environment prohibited the
solicitors from controlling and completing the sale
directly to customers. The dissent analogizes the
nonbinding agreements here to the nonbinding sales
of products that are subject to supply availabilities
and customer return policies, or bulk orders that must

App-15
be completed by purchasing retailers. Even assuming
that the salespeople in these situations qualify for the
exemption under the FLSA, they are distinguishable
from Plaintiffs here because Just Energy itself, not the
purchasers as part of a regulation or policy, controls
the finalization of sales. Plaintiffs could not finalize
customer agreements and complete sales due to Just
Energy’s choice to retain ultimate discretion and to
require certain solicitation procedures at its Ohio
workplace.
In Killion, we reversed summary judgment in
favor of the distributor because a jury could conclude
that the plaintiffs did not actually make sales. 761
F.3d at 584-85. Similarly,
Plaintiffs here
communicated with potential customers, convinced
them to try Just Energy products, and inputted their
information onto the agreement. But Just Energy
retained discretion over completion of sales, just as the
account managers in Killion could restrict and control
the volume of orders. It was appropriate for the jury
and now this court to consider Just Energy’s retention
of discretion over completion of sales as a factor in
determining whether Plaintiffs were making sales.
Our conclusion is supported by Clements v. Serco,
Inc., where the Tenth Circuit held that mere soliciting
or inducing applications is not making sales,
especially if the employer retains discretion and
implements other requirements to complete the
transaction. 530 F.3d 1224, 1229 (10th Cir. 2008)
Though the Clements court noted that the “touchstone
for making a sale . . . is obtaining a commitment,” id.
at 1227, it found that civilian military recruiters are
not outside salespeople because they “could only lay

App-16
the groundwork. It was the Army—and only the
Army—who could enlist a recruit,” id. at 1229.
Plaintiffs’ jobs are comparable to those of the civilian
recruiters in Clements because they “could only lay the
groundwork” but not complete the sale.
Finally, Just Energy argues that this case should
be controlled by Flood v. Just Energy Marketing Corp.,
in which the Second Circuit considered FLSA and
state law claims by door-to-door solicitors against the
same parent entity, Just Energy, and affirmed
summary judgment in favor of Just Energy. 904 F.3d
219 (2d Cir. 2018). Just Energy argues that here too
“making sales” must focus on “whether the employee
has obtained a commitment to buy the employer’s
product.” Id. at 232. But Flood’s emphasis on the
commitment to buy is grounded in its factual setting,
and, as Christopher establishes, other factors must
also be considered. 1
Based on Flood, our dissenting colleague
concludes that our decision is wrong because these
cases present an all or nothing proposition: either all
employees of the topmost parent corporation, Just
Energy, receive FLSA protection or none should. But
that ignores the fact-intensive inquiry required by and
the employee-protective purpose of the FLSA and the
OMFWSA. It also ignores the distinct parties in the
cases: here, Commerce Energy of Ohio, Inc.; in Flood,
1 Appellants also cite as supplemental authority two
Department of Labor opinion letters finding the outside sales
exemption applicable to two specific factual scenarios. The DOL
there applied an analysis that is consistent with our discussion
of Christopher and other precedent above, which governed our
analysis in the factual setting of this case.

App-17
Just Energy New York Corp. It is true that both cases
share defendants—the same ultimate parent
corporation, Just Energy, sits atop the complex
structure of subsidiaries—so there will be some
overlap in method or procedures. But how the New
York subsidiary chooses to operate its worksite does
not tell us how the Ohio subsidiary must necessarily
operate its worksite. And a suit brought in Ohio
against the Ohio subsidiary may find its workplace
operation to be covered by FLSA protections without
creating a circuit split, even if the workplace operation
of the New York subsidiary is exempt. A comparison
of these two cases shows that no circuit split exists.
Flood involved a separate group of licensed Just
Energy subsidiaries that operated in New York at a
worksite that functioned very differently from
Plaintiffs’ worksite. There, if a solicitor convinced a
potential buyer to fill out the customer agreement, the
third-party verification call was initiated and the
solicitor waited outside the customer’s immediate
presence. Id. at 225. If the verifier provided a
confirmation number to the customer, the solicitor
reengaged with the customer at this “critical point of
the sale,” and added the number to the agreement. Id.
The solicitor was told “to confirm the program details”
and “ensure that the customer has no further
questions.” Id. The solicitor then “close[d] the sale by
giving the customer all the paperwork.” Id. He was
“the last person to sell a customer,” and no one else
made sales after him. Id.
Here, the evidence at trial shows that the
procedures governing the interaction between the
door-to-door solicitors and the customers were

App-18
significantly different at the Ohio workplace. The Ohio
affiliate of Just Energy did not allow Plaintiffs to
“close the sale,” or provide confirmation and answers
to customer questions or concerns at the “critical point
of the sale.” Plaintiffs’ contact with the customers
ended upon initiating the verification call, on pain of
termination. Customers were instructed to direct any
questions or concerns to Just Energy’s customer
service. Wage issues, which the minimum wages
requirements of the FLSA seek to address, also
highlight the distinctions between the workplaces.
The lead plaintiff in Flood earned more than $70,000
in commissions per year, was eligible to earn residual
payments, and received incentive awards for travel
around the world. Flood, 904 F.3d at 226. In contrast,
testimony revealed that one Ohio plaintiff made only
$1,200 over three or four months, while another made
only $196 while working 12- to 14-hour days, six to
seven days a week for about two months. And others
testified to making nothing at all, even after working
11- to 12- hour days, six to seven days a week for
several weeks. Of the 3,840 total individuals with
compensation data available in the trial spreadsheets,
69% of the individuals made under $1,000 in total
compensation and 62% of the individuals made under
$500. In sum, Plaintiffs had significantly less control
over their work, sale methods, and compensation than
the New York solicitors. Flood is distinct both in its
procedural posture and in the factual setting that
controlled whether solicitors were in fact authorized
or allowed to make sales. Flood does not control the
outcome of this case.
This appeal challenges the determination of the
jury following trial that Defendants are liable to

App-19
Plaintiffs under the FLSA. Based on the evidence
before it, the jury found that Plaintiffs were not
“making sales” and were not exempt outside
salespeople. This decision accords with the language
of the FLSA and the regulations of the DOL. Our
precedent and that of our sister circuits also support
this conclusion. Viewing the entire record in the light
most favorable to Plaintiffs, as we must, we cannot say
that reasonable minds could have come to only one
conclusion—a decision in favor of Defendants that
Plaintiffs were “making sales.” Therefore, the district
court properly denied Just Energy’s motions for
judgment as a matter of law and for directed verdict.
2.

Obtaining Orders or Contracts for
Services

Having determined that Plaintiffs were not
“making sales,” we turn to whether Plaintiffs were
“obtaining orders or contracts for services.” 29 C.F.R.
§ 541.500. Just Energy argues on appeal that we
should find Plaintiffs to be outside salespeople as a
matter of law because they were obtaining orders or
contracts for services. At issue is whether Just
Energy’s business was selling services. The
Agreement between Just Energy and Plaintiffs clearly
states that Just Energy “is engaged in the business of
selling (or soliciting the sale of) consumer products
(natural gas and electricity),” and testimony from Just
Energy representatives confirms that gas and
electricity are “commodities.” We have also held that
electricity is a commodity. Williams v. Duke Energy
Int’l, Inc., 681 F.3d 788, 800 (6th Cir. 2012) (holding
that electricity is a commodity for the purposes of the
Robinson-Patman Act, which prohibits price

App-20
discrimination between different purchasers of
commodities for those engaged in commerce). The
electricity and natural gas that Just Energy sells to
customers are commodities. Plaintiffs were not
“obtaining orders or contracts for services.”
3.

External Indicia and Apparent
Purpose of the FLSA Exemption

We turn next to the external indicia of salespeople
and the apparent purpose of the FLSA exemption.
Just Energy argues that these are not appropriate
considerations or are at best a secondary analysis of
the outside sales exemption. As already explained, we
review Defendants’ motions for judgment as a matter
of law and for directed verdict de novo, applying “the
same deferential standard as the district court: ‘The
motion may be granted only if in viewing the evidence
in the light most favorable to the non-moving party,
there is no genuine issue of material fact for the jury,
and reasonable minds could come to but one
conclusion, in favor of the moving party.’” Radvansky,
496 F.3d at 614 (quoting Gray v. Toshiba Am.
Consumer Prods., Inc., 263 F.3d 595, 598 (6th Cir.
2001)).
In analyzing the outside sales exemption, the
Supreme Court has considered the “external indicia of
salesmen,” which include: whether the workers were
hired for their sales experience, whether they were
trained to obtain the maximum commitment possible,
whether they worked away from the office with
minimal supervision, and whether they were
rewarded with incentive compensation. Christopher,
567 U.S. at 165-66. Even though the Court considered
these indicia as part of its conclusion that

App-21
pharmaceutical detailers conducted more atypical
sales work (qualifying as “other disposition” under the
definition of “sale” in the statute, 29 U.S.C. § 203(k)),
it did not limit the indicia analysis to exempt
salespeople who fall under the catchall sales category
of “other disposition.” See id. at 164-66. We apply these
indicia to the practices and procedures of Plaintiffs’
Ohio workplace.
Plaintiffs were not hired for their sales
experience—no experience was required. They were
required to report to the office each day before going
to work in the field, where they were closely
supervised. The supervisors controlled Plaintiffs’ daily
schedules, including selecting the streets on which
they were to work. Just Energy mandated that
workers follow a detailed script in their presentations
to potential buyers and enforced a compliance matrix
that governed discipline and employment itself. The
script instructed Plaintiffs to get customers to commit
to Just Energy products, but unlike the detailers in
Christopher, they were not instructed to “obtain[] the
maximum commitment possible.” Id. In the Ohio
workplace, Plaintiffs had to end their engagement
with the customer and leave the premises after
initiating the verification call. They were unable to
verify the commitment from the customers, address
customer concerns or questions, or provide assurances
to the customers. It is true that Plaintiffs were paid
exclusively on commission, but unlike the New York
solicitors in Flood, their commission income was
minimal and they were not rewarded with additional
benefits such as incentives to travel around the world.
See Flood, 904 F.3d at 226. The totality of the
circumstances in this Ohio workplace did not evidence

App-22
the external indicia of salesmen that would support
application of the exemption.
In determining whether the workers were
“employed . . . in the capacity of outside salesman,” 29
U.S.C. § 213(a)(1), the Supreme Court also considered
whether a plaintiff’s capacity “comports with the
apparent purpose of the FLSA’s exemption for outside
salesmen.” Christopher, 567 U.S. at 166. The Court
explained that “[t]he exemption is premised on the
belief that exempt employees ‘typically earned
salaries well above the minimum wage’ and enjoyed
other benefits that ‘se[t] them apart from the
nonexempt workers entitled to overtime pay.’
Preamble 22124.” Id. The pharmaceutical detailers
there earned an average of more than $70,000 per
year, including both a base salary and incentive pay,
which was “well above the minimum wage”; they were
“not required to punch a clock or report their hours,
and they were subject to only minimal supervision.”
Id. at 151, 166. The pharmaceutical detailers also
performed work that “was difficult to standardize to
any time frame and could not be easily spread to other
workers after 40 hours in a week.” Id. at 166. The
Court concluded that pharmaceutical detailers are
“hardly the kind of employees that the FLSA was
intended to protect.” Id.
Plaintiffs’ jobs do not fit this mold of independent
workers managing their hours, territory, and income.
Trial evidence showed they received no base pay and
apparently made much less than minimum wage—a
stark contrast to the lead plaintiff in Flood who earned
more than $70,000 in commissions per year along with
other benefits. See Flood, 904 F.3d at 226. Plaintiffs’

App-23
pay was entirely dependent on completed sales, over
which they had no control, and trial testimony and
compensation data in the record showed that wages
were both inconsistent and disproportionately low
when compared to hours worked. Plaintiffs did not
benefit from minimal supervision—their location and
schedules were set and controlled by their supervisors
and their selling procedures were dictated by the
compulsory script and closely monitored via the
compliance matrix. Plaintiffs’ jobs did not comport
with the apparent purpose of the outside sales
exemption.
C. Jury Instructions
Just Energy challenges the legal accuracy of the
jury instructions, arguing that “authority to bind”
should not be a consideration when applying the
outside sales exemption. Erroneous jury instructions
are generally reviewed for abuse of discretion, but we
review the “legal accuracy” of jury instructions de
novo. United States v. Blanchard, 618 F.3d 562, 571
(6th Cir. 2010).
On appeal, we “review jury instructions as a
whole in order to determine whether they adequately
inform the jury of relevant considerations and provide
a basis in law for aiding the jury to reach its decision.”
United States v. Godofsky, 943 F.3d 1011, 1027-28 (6th
Cir. 2019) (quoting United States v. Theunick, 651
F.3d 578, 589 (6th Cir. 2011)). “Reversal of a jury
verdict based on incorrect jury instructions is
warranted only when the instructions, ‘viewed as a
whole, [are] “confusing, misleading, and prejudicial.”‘“
Bridgeport Music, Inc. v. UMG Recordings, Inc., 585
F.3d 267, 274 (6th Cir. 2009) (quoting Romanski v.

App-24
Detroit Entm’t, LLC, 428 F.3d 629, 641 (6th Cir.
2005)). The district court instructed the jury:
In determining whether a particular
transaction qualifies as a sale for purposes of
the Fair Labor Standards Act, you are
required to consider the extent to which the
employee has the authority to bind the
company to the transaction at issue.
However, when governmental regulatory
requirements limit an employee’s ability to
bind his employer, compliance with those
governmental regulatory requirements do not
disqualify the transaction from constituting a
sale for the purposes of the outside
salesperson exemption.
...
On the other hand, if the employer retains
and/or exercises discretion to accept or reject
any transactions for reasons that are
unrelated to regulatory requirements
applicable to the industry, the transaction
should not be considered a sale for purposes
of the Fair Labor Standards Act.
(R. 850, Trial Tr., PageID 15486-87)
The district court emphasized consideration of the
extent of Plaintiffs’ authority to bind, rather than
instructing that the authority to bind is a prerequisite
or determining factor. The court also clarified the
importance of the relevant regulatory requirements
applicable to the industry: if such requirements apply,
Plaintiffs’ authority to bind and Just Energy’s
discretion to accept or reject transactions will not
disqualify the exemption. In this context, we disagree

App-25
with our dissenting colleague’s conclusion that this
question should have been resolved solely on the
undisputed fact that Just Energy retained discretion.
Instead, it required the jury to evaluate “case-specific
factual issues” in the context of the regulatory
environment. U.S. Bank, 138 S. Ct. at 967. Read as a
whole, the jury instructions are an accurate statement
of the outside sales exemption as instructed by
Christopher. The district court did not commit
reversible error in its jury instructions.
D. Evidence of Compensation
Just Energy challenges the admission of
Plaintiffs’ compensation into evidence, arguing that
compensation is irrelevant to the outside sales
exemption and unnecessary here because it had
already stipulated to the fact that it did not pay
minimum wage and overtime. Evidentiary rulings by
the district court are reviewed for abuse of discretion.
United States v. Jamieson, 427 F.3d 394, 409 (6th Cir.
2005).
In discussing its decision to admit compensation
evidence, the district court noted that Plaintiffs have
the burden to show that there is a failure to pay
minimum wages and overtime pay. This is because
Just Energy stipulated only that “they do not pay
overtime for hours worked over 40 hours per week and
do not pay minimum wage in situations where the
commissions earned during a particular workweek are
insufficient to ensure that salespersons’ wage rates
meet or exceed the minimum wage.” (R. 763,
Stipulation & Order, PageID 11094) Just Energy did
not stipulate that Plaintiffs actually earned less than
minimum wage in commissions, or that they were

App-26
entitled to overtime pay at all. Compensation
information was therefore necessary for Plaintiffs to
establish that they had minimum wage and overtime
claims to begin with. Indeed, testimonial evidence
showed that a number of plaintiffs worked long hours
and received little or no pay. And as already noted,
documentary evidence of over 3,800 individuals
showed that 69% made under $1,000 in total
compensation and 62% made under $500.
Compensation information was also relevant to
other parts of the outside sales exemption analysis.
Both the Christopher and Flood courts noted the
yearly earnings of the plaintiffs; in Christopher, the
Supreme Court referenced compensation information
as part of the analysis of whether the plaintiffs fit the
“apparent purpose of the FLSA exemption.”
Christopher, 567 U.S. at 166; see also Flood, 904 F.3d
at 226. Plaintiffs’ compensation evidence, including
the size of the checks that individuals received, was
also relevant to determine if and how commissions
were paid, and by extension the amount of discretion
that Just Energy exercised to accept or reject sales.
The district court did not abuse its discretion by
admitting compensation evidence as part of the
analysis of the outside sales exemption.
III. CONCLUSION
For the reasons stated above, we find no error in
the challenged jury instructions and evidentiary
rulings of the district court and AFFIRM the district
court’s denial of the motions for judgment as a matter
of law and directed verdict.

App-27
DISSENT
MURPHY, Circuit Judge, dissenting. We must
decide whether the plaintiffs are outside salespeople
exempt from the requirements of the Fair Labor
Standards Act (FLSA). The basic facts are largely
undisputed: The plaintiffs go door-to-door convincing
residents to buy natural gas or electricity from Just
Energy. When a plaintiff convinces residents to do so,
the residents sign “customer agreements” stating that
they are choosing Just Energy for their energy. Given
these facts, how would you describe the plaintiffs’
occupation? Most people, I think, would naturally
refer to them as “salespeople” who make door-to-door
“sales.” The plaintiff in a similar suit readily agreed as
much. Flood v. Just Energy Mktg. Corp., 904 F.3d 219,
225 (2d Cir. 2018). Here, however, the district court
held that a jury could find that the plaintiffs were not
outside salespeople. That is so, it said, largely because
Just Energy could reject customer agreements after
customers signed them.
With respect for my colleagues’ contrary views, I
would reverse. The district court erred twice over. And
our failure to correct its errors creates a clear circuit
conflict. First, the court wrongly treated the ultimate
issue whether the plaintiffs were outside salespeople
as a fact question for the jury, not a legal question for
the court. Yet whether the “particular activities” of a
group of employees “exclude[] them from the overtime
benefits of the FLSA is a question of law[.]” Icicle
Seafoods, Inc. v. Worthington, 475 U.S. 709, 714
(1986); see Flood, 904 F.3d at 227. This case thus
raises a legal question: Do the plaintiffs’ undisputed
day-to-day activities qualify as “making sales” within

App-28
the meaning of the outside-sales exemption? 29 C.F.R.
§ 541.500(a)(1)(i).
Second, the district court interpreted this
“making sales” language too narrowly. Id. The
Supreme Court has given it a broad reach, holding
that pharmaceutical sales representatives “make
sales” by getting nonbinding commitments from
doctors to prescribe (not buy) drugs. Christopher v.
SmithKline Beecham Corp., 567 U.S. 142, 161-69
(2012). If those efforts qualify as “making sales,” the
plaintiffs’ efforts to convince customers to purchase
their energy from Just Energy do too. I see no textual
basis for the district court’s view that their activities
do not qualify as “making sales” simply because Just
Energy can still back out of an agreement after a
plaintiff convinces a customer to sign it. The Second
Circuit rejected the same argument when concluding
that a similar Just Energy employee made sales.
Flood, 904 F.3d at 229-33. So two circuit courts are
now holding the same company to conflicting legal
mandates. That state of affairs is unsustainable.
Either all of these Just Energy employees should
receive the FLSA’s protections or none should.
I
A
The FLSA requires employers to pay a minimum
wage and overtime compensation. 29 U.S.C. § § 20607. But its protections do “not apply with respect to”
“any employee employed . . . in the capacity of outside
salesman” as that term is “defined and delimited from
time to time by regulations of the Secretary” of Labor.
Id. § 213(a)(1). (No party challenges this delegation of
authority. Cf. Gundy v. United States, 139 S. Ct. 2116

App-29
(2019).) A regulation defines “outside salesman” to
cover employees who (1) primarily engage in “making
sales” and (2) typically work away from their
employer’s business. 29 C.F.R. § 541.500(a). It
provides:
(a) The term “employee employed in the
capacity of outside salesman” in section
13(a)(1) of the Act shall mean any employee:
(1) Whose primary duty is:
(i) making
sales
within
the
meaning of section 3(k) of the Act, or
(ii) obtaining orders or contracts for
services or for the use of facilities for
which a consideration will be paid by
the client or customer; and
(2) Who is customarily and regularly
engaged away from the employer’s place
or places of business in performing such
primary duty.
Id. This case concerns the “making sales” element.
That element incorporates the statutory definition of
“sale”: “‘Sale’ or ‘sell’ includes any sale, exchange,
contract to sell, consignment for sale, shipment for
sale, or other disposition.” 29 U.S.C. § 203(k); 29
C.F.R. § 541.501(b).
In Christopher, the Supreme Court interpreted
“making sales” broadly because it uses this broad
statutory definition. 567 U.S. at 162-64. The Court
viewed the definition’s list of covered items as “an
attempt to accommodate industry-by-industry
variations in methods of selling commodities.” Id. at
164. It thus read “the catchall phrase ‘other

App-30
disposition’” to reach “those arrangements that are
tantamount, in a particular industry, to a
paradigmatic sale of a commodity.” Id. Under this
definition, the Court found that pharmaceutical sales
representatives make sales by persuading doctors to
prescribe drugs. Id. at 165-67. It held that a
“nonbinding commitment” to prescribe a drug is an
“other disposition.” Id. at 165. It gave two additional
reasons for this view. First, the representatives bore
“external indicia” of salespeople, including that they
were “hired for their sales experience,” “worked away
from the office, with minimal supervision,” and “were
rewarded
for
their
efforts
with
incentive
compensation.” Id. at 165-66. Second, the exemption
exists because outside salespeople typically make well
over the minimum wage and work non-standard
schedules. Id. at 166. These purposes supported the
exemption’s application because pharmaceutical sales
representatives are paid well and often work irregular
hours. Id.
B
This case involves the sale of energy rather than
drugs. Just Energy Group and two subsidiaries,
Commerce Energy and Just Energy Marketing, “sell
electricity and natural gas to residential and
commercial customers in the United States and
Canada.” Hurt v. Commerce Energy, Inc., 92 F. Supp.
3d 683, 687 (N.D. Ohio 2015). (I refer to all defendants
as “Just Energy” because their corporate distinctions
do not matter here.) As part of Just Energy’s “selling
scheme,” the plaintiffs “would go door to door to obtain
applications from potential customers” to purchase
electricity or natural gas. Id. Just Energy hired the

App-31
plaintiffs “without regard to their prior sales
experience” and “closely controlled [their] work
schedules” by driving them to neighborhoods and
telling them “how many doors to knock on per day.” Id.
at 689-90. It also gave the plaintiffs “detailed scripts
to follow[.]” Id. at 691. And it paid them only
commissions. Id.
As their primary duty, the plaintiffs persuaded
residents to sign forms entitled “customer
agreements” (what the district court called
“applications,” id. at 687). In an Ohio example of this
form, a customer acknowledges: “I CHOOSE
Commerce Energy d/b/a Just Energy to be my supplier
of natural gas (“Gas”) for the Term selected below.”
Yet the agreement does not immediately bind either
side of the transaction. It tells customers they have the
right to rescind it for a significant period of time. It
also is “conditional upon [Just Energy’s] acceptance[.]”
And Just Energy’s “acceptance is at [its] sole
discretion,” depending in part on whether the
customer is “creditworthy” and whether Just Energy
can “verify [the customer’s] information by recorded
phone call[.]” After obtaining an agreement, a plaintiff
would initiate this call and leave the customer’s home
so that the customer could speak with a third-party
verifier to protect against fraud. The plaintiffs
received a commission only if Just Energy later
accepted the agreement.
The plaintiffs sued Just Energy for failing to pay
them a minimum wage and overtime compensation.
The district court certified a collective action under
the FLSA and a class action under Ohio law. (The
same standards apply to both claims.) The class

App-32
plaintiffs worked for Just Energy in six states: Illinois,
Ohio, Pennsylvania, Maryland, California, and New
York.
At trial, the parties stipulated that the plaintiffs
worked away from Just Energy’s business. The trial
thus addressed only whether the plaintiffs were
“making sales.” The court gave lengthy instructions on
this element. It read the statutory definition of “sale”
and noted that the jury’s “decision should be [a]
functional rather than formal inquiry, one that views
an employee’s responsibilities in the context of the
particular industry in which the employee works.” Tr.,
R.850, PageID#15486. The court also stated that the
jury must “consider the extent to which the employee
has the authority to bind the company to the
transaction at issue.” Id. If an employer could reject a
transaction “for reasons that are unrelated to
regulatory requirements applicable to the industry,”
the court said, “the transaction should not be
considered a sale[.]” Id., PageID#15486-87. It next
turned to Christopher’s “external indicia” of
salespeople. It told the jury that it may “ask whether
under the totality of the circumstances [these factors]
suggest the plaintiffs were actually engaged in
making sales.” Id., PageID#15487. It then ticked
through various indicia, including, for example,
whether “the employee was recruited based upon sales
experience and ability[.]” Id., PageID#15488.
The jury ruled for the plaintiffs. It answered “No”
to the following question: “Have Defendants met their
burden of demonstrating that Plaintiffs qualify as
outside salespeople and are thus exempt from the
legal requirement to pay minimum wage and

App-33
overtime?” The district court denied Just Energy’s
motion for judgment as a matter of law for two
reasons. See Hurt, 92 F. Supp. 3d at 689-93. It held
that the “external indicia” “could easily support the
jury’s verdict.” Id. at 689. And it held that the
plaintiffs “obtained only non-binding applications
from customers[.]” Id. at 692. After a damages phase,
the court entered a judgment against Just Energy for
over $4.8 million.
II
The district court committed two errors. It
wrongly asked the jury to answer a legal question. And
when doing so, it misinterpreted the phrase “making
sales.”
A
The district court did not decide (one way or the
other) whether the plaintiffs were outside salespeople.
It instead held that, while the evidence could support
a verdict in Just Energy’s favor, sufficient contrary
evidence existed “for the jury to reach the opposite
conclusion[.]” Hurt, 92 F. Supp. 3d at 689, 693. The
court wrongly viewed this question as one of fact
rather than law.
1
This case raises a common problem about how to
characterize “the application of a legal standard to
settled facts.” Guerrero-Lasprilla v. Barr, 140 S. Ct.
1062, 1068 (2020). That question arises only after one
identifies the relevant “legal standard” and the
relevant “facts.” The correct decisionmakers for those
two inquiries are obvious. Courts pick the “legal test”
by deciding what a statute means. U.S. Bank Nat’l

App-34
Ass’n v. Vill. at Lakeridge, LLC, 138 S. Ct. 960, 965
(2018). And factfinders find the “‘historical’ fact[s]” by
deciding “who did what, when or where, how or why.”
Id. at 966. Once we know the legal test and the
historical facts, a decisionmaker must decide whether
those facts satisfy that test—a “mixed question of law
and fact.” Guerrero-Lasprilla, 140 S. Ct. at 1069
(citation omitted). Do these mixed questions raise
legal issues for courts or fact issues for juries? It
depends. U.S. Bank, 138 S. Ct. at 966-67. If answering
the question “require[s] courts to expound on the law,”
courts treat it as legal. Id. at 967; cf. Ornelas v. United
States, 517 U.S. 690, 697 (1996). If answering the
question “immerse[s] courts in case-specific factual
issues,” courts treat it as factual. U.S. Bank, 138 S. Ct.
at 967; cf. Monasky v. Taglieri, 140 S. Ct. 719, 730
(2020).
This analysis leads us to the proper question here:
Does deciding whether undisputed job duties fall
within an FLSA exemption “entail[] primarily legal or
factual work”? U.S. Bank, 138 S. Ct. at 967. The
Supreme Court has told us it is legal. Icicle, 475 U.S.
at 714. Icicle addressed the exemption for “any
employee employed as a seaman[.]” 29 U.S.C.
§ 213(b)(6). The plaintiffs, engineers on a seafoodprocessing barge, worked to ensure the barge’s
continuous operation. Icicle, 475 U.S. at 711. After a
bench trial, the district court found them exempt. Id.
The Ninth Circuit reversed on de novo review. Id. at
710. The Supreme Court, in turn, reversed because the
Ninth Circuit wrongly made “factual findings” about
the historical facts. Id. at 714. It explained that what
the employees did from day to day raised a question of
fact subject to clear-error review. Id. But it then said:

App-35
“The question whether their particular activities
excluded them from the overtime benefits of the FLSA
is a question of law which both parties concede is
governed by the pertinent regulations[.]” Id.
(emphasis added). It added that the appellate court
could have reversed the district court—even assuming
that the “factual findings were unassailable”—if it had
found that the “proper rule of law was misapplied to
those findings[.]” Id.
We have adopted Icicle’s dichotomy since. While
we review a district court’s “findings of fact for clear
error,” we “review de novo the district court’s
application to those facts of the legal standards
contained in [FLSA] statutes, regulations, and
caselaw.” Brock v. City of Cincinnati, 236 F.3d 793,
800 (6th Cir. 2001); Ale v. Tenn. Valley Auth., 269 F.3d
680, 691 (6th Cir. 2001); Martin v. W.E. Monks & Co.,
1993 WL 300332, at *2 (6th Cir. Aug. 3, 1993); Spencer
v. Office of the Auditor of Pub. Accounts, 1991 WL
32361, at *1 (6th Cir. Mar. 12, 1991).
Other courts agree. “The exemption question
under the FLSA is a mixed question of law and fact.
The question of how the employees spent their
working time is a question of fact. The question of
whether their particular activities excluded them from
the overtime benefits of the FLSA is a question of law.”
Pippins v. KPMG, LLP, 759 F.3d 235, 239 (2d Cir.
2014) (citation omitted); Robinson-Smith v. Gov’t
Emps. Ins. Co., 590 F.3d 886, 891-92 (D.C. Cir. 2010);
Cheatham v. Allstate Ins. Co., 465 F.3d 578, 584 (5th
Cir. 2006); Walton v. Greenbrier Ford, Inc., 370 F.3d
446, 450 (4th Cir. 2004); Ackerman v. Coca-Cola
Enters., Inc., 179 F.3d 1260, 1264 (10th Cir. 1999);

App-36
Spinden v. GS Roofing Prods. Co., 94 F.3d 421, 426
(8th Cir. 1996). If the facts are undisputed, courts
regularly grant summary judgment to employers
(finding that an exemption applies), Pippins, 759 F.3d
at 240, 252; Gregory v. First Title of Am., Inc., 555 F.3d
1300, 1308-10 (11th Cir. 2009), or employees (finding
that an exemption does not apply), Calderon v. GEICO
Gen. Ins. Co., 809 F.3d 111, 120, 130 (4th Cir. 2015);
Clements v. Serco, Inc., 530 F.3d 1224, 1229 (10th Cir.
2008).
2
Now apply this framework here. We must start by
identifying the “legal test.” U.S. Bank, 138 S. Ct. at
965. As noted, the outside-sales exemption has two
parts. 29 C.F.R. § 541.500(a). And it is our job to figure
out (without the slightest deference to the jury) what
the first part means when it says that employees must
have a primary duty of “making sales within the
meaning of section 3(k) of the Act[.]” Id.
§ 541.500(a)(1)(i). Did the district court correctly hold
that “making sales” requires employees to have the
authority to bind their employer to a sale? Did it
correctly interpret that phrase to depend on the
“external indicia” of salespeople? These are purely
legal questions. (I think the district court got them
wrong, but set that aside for now.)
Next consider the “historical facts.” U.S. Bank,
138 S. Ct. at 966. If the parties disputed any of the
activities that the plaintiffs did on a day-to-day basis,
that factual dispute would certainly be for the jury to
resolve. Yet I do not see much disagreement on these
facts. There is no dispute that the plaintiffs regularly
worked away from Just Energy’s offices. 29 C.F.R.

App-37
§ 541.500(a)(2). And there is no dispute about the
plaintiffs’ “primary duty”: to persuade residents to
sign forms agreeing to buy their energy from Just
Energy. Id. § 541.500(a)(1).
The parties debate only whether these
solicitations rise to the level of “making sales.” See id.
§ 541.500(a)(1)(i). For this question, too, the historical
facts are largely undisputed. The plaintiffs, for
example, did not need sales experience and Just
Energy closely controlled their work. Hurt, 92 F. Supp.
3d at 689-90. Both the customers and Just Energy
could later reject agreements that the plaintiffs
convinced customers to sign. Id. at 692-93. And the
plaintiffs were paid only on a commission basis and
only if neither party rejected the agreement. Id. at
687. All told, this case strikes me as one in which the
“tasks performed by” the employees are “essentially
agreed by the parties” and they instead dispute only
whether those tasks “exclude[] them from the
overtime benefits of the FLSA.” Pippins, 759 F.3d at
240 (quoting Icicle, 475 U.S. at 714). The case thus
raises “a question of law.” Id. (quoting Icicle, 475 U.S.
at 714).
Christopher bolsters my view. That case arose on
summary judgment. 567 U.S. at 152. The Court first
clarified the meaning of “making sales,” a legal
question. 567 U.S. at 161-64 (Part II.C.1). It then
applied its test to the sales representatives’ duties, a
mixed question of law and fact. Id. at 165-67 (Part
II.C.2). When doing so, the Court did not frame this
question as whether a reasonable jury could find that
the representatives were (or were not) “making sales”
under its test. The Court applied the test itself. Id. Yet

App-38
if Christopher’s “application of a legal standard to
settled facts” was really for the jury, I find it difficult
to see how that case did not at least raise a triable
issue. Guerrero-Lasprilla, 140 S. Ct. at 1068; see also
Encino Motorcars, LLC v. Navarro, 138 S. Ct. 1134,
1140-43 (2018) (finding employees exempt at pleading
stage).
The Second Circuit likewise treated this question
as for the court in a nearly identical case. Flood, 904
F.3d at 228. The plaintiff in Flood worked for two of
the same Just Energy companies in New York. He had
largely the same duties as the plaintiffs here, but the
district court found that these duties qualified as
“making sales” on summary judgment. Id. at 224-26.
On appeal, the Second Circuit said: “The question of
how an employee spends his or her time working is one
of fact, while the question of whether those work
activities exempt him or her from the FLSA is one of
law.” Id. at 227. It then explained why the plaintiff
made sales as a matter of law. Id. at 229.
Frankly, I do not see the need for a trial even
under the district court’s view of the law. Its
instructions read as if the court was asking the jury to
answer a question of statutory interpretation. The
instructions told the jury to consider the text of the
“sales” definition and the purpose-based indicia from
Christopher. Yet the instructions then added a legal
gloss nowhere found in Christopher, stating: “[I]f the
employer retains and/or exercises discretion to accept
and/or reject any transaction for reasons that are
unrelated to regulatory requirements applicable to the
industry, the transaction should not be considered a
sale[.]” Tr., R.850, PageID#15487. There is no dispute

App-39
that Just Energy retained the discretion that the
instructions prohibited. So the district court’s view of
the law should have led it to enter judgment as a
matter of law for the plaintiffs. Either way, whether
the plaintiffs are exempt or non-exempt, this “making
sales” question is for the court.
B
Even if this mixed question of law and fact were
for the jury, the proper meaning of the outside-sales
exemption raises a pure legal question for the court.
U.S. Bank, 138 S. Ct. at 965. And no reasonable jury
could return a verdict for the plaintiffs under a correct
view of the law.
1
Like the Second Circuit, I believe that these Just
Energy employees were “undoubtedly ‘making sales’
within the scope of the outside salesman exemption”
when they engaged in their door-to-door solicitations.
Flood, 904 F.3d at 229. I reach this conclusion based
on the plain text, the nearby outside-sales regulations,
the FLSA as a whole, and the most relevant caselaw.
a. The text’s plain meaning shows that the
plaintiffs “made sales.” The phrase “making sales” has
two requirements: there must be a result (a “sale”) and
an employee’s activities must have enough of a
connection to that result (the employee must “make”
the sale). The Supreme Court recently rejected the
once common view “that exemptions to the FLSA
should be construed narrowly.” Encino, 138 S. Ct. at
1142. So we must interpret these words as we would
any other text—by giving them a “fair reading,” not a
restrictive one. Id.

App-40
When fairly read, both words have a broad
meaning. Start with “sales.” The regulation
incorporates the statutory definition of “sale.” Far
from covering only the technical “exchange of a
commodity for money,” 9 Oxford English Dictionary 49
(1933), this definition “includes any sale, exchange,
contract to sell, consignment for sale, shipment for
sale, or other disposition,” 29 U.S.C. § 203(k). By using
the verb “include,” the definition clarifies that its
nonexclusive list does not identify all arrangements
that qualify as “sales.” See Christopher, 567 U.S. at
162. And by using the adjective “any,” the definition
clarifies that every kind of the listed items qualifies as
a “sale.” See id. To have separate meaning, moreover,
the catchall “other disposition” must cover more than
“a ‘firm agreement’ or ‘firm commitment’ to buy”
because those things already fall within the phrase
“contract to sell.” Id. at 163 & n.20 (citation omitted).
The word “making” next identifies the connection
an employee must have to a “sale.” It has a broad
meaning too. In one sense, a person “makes” a sale if
the person “cause[s]” the sale or “brings” it “about.”
Webster’s New International Dictionary 1485 (2d ed.
1934) (def. 18); 6 Oxford English Dictionary at 61 (def.
9). In another sense, the entire phrase (“making
sales”) can be read simply as “selling.” When a
sentence uses the verb “make” with an object that can
take a verb form (“to make a statement”), the
combined phrase can have the same meaning as that
verb form (“to state”). Janus Capital Grp., Inc. v. First
Derivative Traders, 564 U.S. 135, 142 (2011) (citing 6
Oxford English Dictionary at 66 (def. 59)). This view
does not change things. While “sell” can have a
technical meaning (“[t]o transfer (property) for a

App-41
consideration”), Webster’s, supra, at 2272 (def. 7), that
narrow meaning would not fit the regulation’s broad
definition of “sell,” 29 U.S.C. § 203(k). In this setting,
“selling” should cover those who “persuade” customers
“to a course of action” (a sale), Webster’s, supra, at
2272 (def. 14), or who “cause or further” the sale, id.
(def. 8); 9 Oxford English Dictionary at 429 (def. 3.c).
This meaning fits the context. United States v.
Hill, 963 F.3d 528, 533 (6th Cir. 2020). The regulation
uses “making sales” to describe those who are “outside
salesmen.” Cf. Johnson v. United States, 559 U.S. 133,
140 (2010). In that context, “making sales” naturally
refers to those who persuade people to buy things.
Most people, for example, would say that a “car
salesman” who convinces a customer to buy a car is
the one who “makes” the “sale” even if the customer
then reviews the paperwork with the dealership’s
financial staff. Christopher, 567 U.S. at 167.
Turning to this case, the plaintiffs’ duty to
persuade customers to buy energy from Just Energy
fits within this plain meaning of “making sales.” Is
there a “sale” involved? Yes. Unlike Christopher, we
need not even concern ourselves with the catchall
“other disposition.” See 567 U.S. at 165. The
arrangement here falls within a specific item—
”contract to sell.” 29 U.S.C. § 203(k). Did the plaintiffs
“make” these contracts? Yes, again. I agree that Just
Energy could decline to enter a contract after the
plaintiffs convinced a customer to sign an agreement.
But the plaintiffs were the ones who “brought about”
any later finalized contracts by “persuading”
customers to enter them. See Webster’s, supra, at 1485,
2272. The text requires nothing more.

App-42
In the alternative, the plaintiffs undoubtedly
brought about (“made”) the customers’ offers to
purchase by convincing them to sign the agreements
memorializing those offers. Does an offer to buy a good
qualify as a “sale”? Even if it is not a “contract to sell”
because Just Energy could reject the offer, it fits
within the “other disposition” catchall. See
Christopher, 567 U.S. at 163-64. An offer to buy is
essentially an “order” for goods. See id. (defining
“disposition”). And the very next provision clarifies
that “orders” “for services” are covered. 29 C.F.R.
§ 541.500(a)(ii). It would make little sense to read
§ 541.500(a)(ii) as reaching non-contractual orders for
services while reading § 541.500(a)(i) as excluding
non-contractual orders for goods.
b. Nearby outside-sales regulations also show that
the plaintiffs were “making sales.” These regulations
distinguish those who make their own solicitations
from those who promote the sales of others. And the
plaintiffs were making their “own” solicitations.
The Department of Labor has traditionally
distinguished salespeople from “promotion men”
working for manufacturers. U.S. Dep’t of Labor, Wage
& Hour Div., Report and Recommendations of the
Presiding Officer at Hearings Preliminary to
Redefinition 46 (1940) (“1940 Report”). These
promoters would visit retail stores to “put[] up
displays and posters, remov[e] damaged or spoiled
stock from the merchant’s shelves or rearrang[e] the
merchandise.” U.S. Dep’t of Labor, Wage & Hour &
Public Contracts Divs., Report and Recommendations
on Proposed Revisions of Regulations, Part 541, 82-83
(1949) (“1949 Report”). The Department concluded

App-43
that they were not salespeople because their activities
were “designed to stimulate sales which will be made
by someone else[.]” Id. at 83. If, by contrast, an
employee was “actually engaged in activities directed
toward the consummation of his own sales, at least to
the extent of obtaining a commitment to buy from the
person to whom he is selling,” the employee was
exempt. Id.
A “promotion work” regulation codified this
distinction. It says that the exemption reaches
promotion work performed “in conjunction with an
employee’s own outside sales or solicitations[.]” 29
C.F.R. § 541.503(a). But the exemption does not reach
promotional work “that is incidental to sales made, or
to be made, by someone else[.]” Id. The regulation
gives as an example of the latter an employee who
visits “chain stores” to arrange goods and replenish
stock but “does not obtain a commitment for additional
purchases.” Id. § 541.503(c). These actions are not
“making sales” because the employee “does not
consummate the sale nor direct efforts toward the
consummation of a sale[.]” Id. Another regulation, by
comparison, suggests that a delivery driver makes
sales if the driver “obtains or solicits orders for the
employer’s products from persons who have authority
to commit the customer for purchases.” Id.
§ 541.504(c)(2). In the guidance with these
regulations, the Department reiterated that “making
sales” should cover employees who “‘obtain a
commitment to buy’ from the customer and are
credited with the sale.” 69 Fed. Reg. 22122, 22162
(Apr. 23, 2004) (quoting 1949 Report, at 83).

App-44
This dichotomy likewise shows that the plaintiffs
“made sales.” They engaged in their own
“solicitations” when they went door-to-door to
convince customers to buy energy, obtaining their own
“orders” and “direct[ing] [their] efforts toward the
consummation of” their own sales. 29 C.F.R.
§ § 541.503(a), (c), 541.504(c)(2). They also sought to
“obtain a commitment to buy” (the customer
agreements) and were “credited” with finalized
contracts (through their commissions). 69 Fed. Reg. at
22162. Conversely, the plaintiffs have identified no
other Just Energy employees who “made” these sales.
They have not argued that the third-party verifiers did
so. For good reason. Those verifiers existed to stop
sales, not make them. They ensured that the plaintiffs
had disclosed all required information and had not
engaged in fraud. Cf. Flood, 904 F.3d at 225.
c. A broader view of the FLSA supports this
conclusion too. The outside-sales exemption relies on
“a general definition” of sale “that applies throughout
the FLSA.” Christopher, 567 U.S. at 164 n.21. We
should consider how the statute uses the word “sale”
or “sell” elsewhere. After all, courts presume that the
same word does not change meanings across a statute.
See Scialabba v. Cuellar de Osorio, 573 U.S. 41, 60
(2014). That principle has even more force when the
word comes with a universal definition. See 29 U.S.C.
§ 203(k).
So I find it noteworthy that Congress broadened
the FLSA’s reach in 1961 to cover businesses that have
“employees handling, selling, or otherwise working on
goods or materials that have been moved in or
produced for commerce by any person[.]” 29 U.S.C.

App-45
§ 203(s)(1)(A)(i) (emphasis added); Sec’y of Labor v.
Timberline S., LLC, 925 F.3d 838, 843-45 (6th Cir.
2019). How does the Secretary of Labor interpret
“selling” in this provision? The Secretary broadly
defines the word to match the plain meaning I have
given to “making sales”: “As long as the employee in
any way participates in the sale of the goods he will be
considered to be ‘selling’ the goods, whether he
physically handles them or not.” 29 C.F.R. § 779.241.
“Thus, if the employee performs any work that, in a
practical sense is an essential part of consummating
the ‘sale’ of the particular goods, he will be considered
to be ‘selling’ the goods.” Id.
Would anyone challenge that the plaintiffs were
“selling” under this definition? They “participate” in
obtaining the contracts to sell by discovering one side
of those contracts. And they are an “essential part” of
completing the contracts that Just Energy finalizes.
Without the plaintiffs, there would be no purchasers—
and hence no contracts. It does not get more essential
than that.
To be sure, the Fifth Circuit fifty years ago
rejected reliance on this regulation because it concerns
the FLSA’s coverage, not an exemption. Wirtz v.
Keystone Readers Serv., Inc., 418 F.2d 249, 261 (5th
Cir. 1969). But Wirtz rests on since-overruled logic. It
said: “Given the rule that coverage provisions are to be
liberally construed while exemptions are to be
narrowly construed, definitions for one purpose would
seem ill suited to the other.” Id. (emphases added). Not
anymore. The Supreme Court recently clarified that
the FLSA’s exemptions are just as much a part of
Congress’s legislative compromise as are its coverage

App-46
provisions. Encino, 138 S. Ct. at 1142. Both are
entitled to the same “fair reading,” not to an overly
broad or overly narrow one. Id.
d. Relevant precedent removes all doubt. As
noted, the Second Circuit found that a similar Just
Energy employee fell within the exemption. Flood, 904
F.3d at 229. It reasoned that the plaintiff “was not just
promoting these products or advertising them; he was
trying to persuade specific customers to sign up thenand-there for an energy plan.” Id. The court found that
he made sales because he “obtain[ed] a commitment to
buy from the customer and [was] credited with the
sale.” Id. (citation omitted). It also rejected the claim
that the plaintiff did not make sales because Just
Energy could reject an agreement. “We do not agree
that the outside salesman exemption requires a
showing that a selling employee has an unconditional
authority to bind the buyer or his employer to
complete the sale.” Id. This case is legally identical to
Flood.
Apart from Flood, the reasoning of all nine
Justices in Christopher shows that the plaintiffs made
sales. The majority held that a “nonbinding
commitment” to prescribe a drug qualifies as an “other
disposition” and so a “sale.” 567 U.S. at 165. A
nonbinding agreement to buy energy looks even more
like a “sale” than a nonbinding commitment to
prescribe a drug. As Flood noted, the plaintiffs’ duties
are “more in the nature of ‘making sales’ than the
primary duties of the representatives at issue in
Christopher.” 904 F.3d at 231. If those representatives
are exempt, the plaintiffs must be too. In fact, even the
Christopher dissent believed that the exemption

App-47
covered those who “obtain a firm commitment to buy
the product.” 567 U.S. at 178 (Breyer, J., dissenting).
The signed customer agreements strike me as a firm
commitment to buy energy from Just Energy.
2
The district court and the majority reach a
contrary result for two reasons: The plaintiffs could
not bind Just Energy to the contracts and they did not
bear all the “external indicia” of salespeople. Neither
reason removes the plaintiffs from the outside-sales
exemption’s reach.
Authority to Bind. The district court held that the
plaintiffs do not “make sales” because Just Energy and
its customers could both stop a deal after a customer
signed an agreement. See Hurt, 92 F. Supp. 3d at 69293, 696-97. I do not understand why this fact should
disqualify the plaintiffs. Neither text nor precedent
supports the district court’s rule.
Start with the text. It does not require the
employee to consummate or complete the sale; it
requires the employee to make the sale. And the
plaintiffs “make” the “contracts to sell” that Just
Energy enters with consumers even if the contracts do
not get finalized until later and even if some fall apart.
The phrase “making sales” naturally captures the
employees who “persuade” customers to buy the
employer’s products, Webster’s, supra, at 2272 (def.
14), even if the actual exchange occurs later in
coordination with others, Christopher, 567 U.S. at
167-68. Nearby regulations confirm this view. They
say employees are covered if they “solicit[] orders” or
engage in “solicitations.” 29 C.F.R. § § 541.503(a),
541.504(c)(2). Who else at Just Energy undertakes

App-48
these acts of persuasion if not the plaintiffs? The
plaintiffs certainly identify no one else.
Consider some hypotheticals. The exemption
covers those who “‘obtain a commitment to buy’” or an
“order.” 69 Fed. Reg. at 22162 (citation omitted); 29
C.F.R. § 541.504(c)(2). What happens if salespeople
are required to say that their employer’s filling of any
order depends on it having available stock (“while
supplies last”)? Does that disclaimer disqualify them
from making sales because they do not “bind” their
employer to sales? I would think not. The exemption
requires a commitment to buy, not a commitment to
sell. The exemption likewise covers salespeople who
convince a retailer to buy a load of product even if the
retailer makes the purchase “through [its] internal
computerized purchasing system,” not the salespeople
themselves. 69 Fed. Reg. at 22162. The retailer
obviously could change its mind in between when it
gives a commitment to salespeople and when it “types
the order into [its] computer system and hits the
return button[.]” Christopher, 567 U.S. at 149 (quoting
69 Fed. Reg. at 22163). Does that discretion disqualify
the salespeople from making sales because they do not
get on-the-spot “binding” commitments? Again, I
think not. More basically, many retail stores have
generous “return” policies that allow customers to
return purchased items no questions asked. Does a
salesperson who convinces a customer to buy a
product “make sales” even though the sale is not
“binding” after the customer leaves the store? It would
be quite strange to say that the salesperson is not
making sales.

App-49
Turn to precedent. Christopher rebuts any
argument that employees must have on-the-spot
authority to bind their employers. Flood, 904 F.3d at
229-31. The Court “declined to interpret the ‘making
sales’ requirement to mandate a showing that an
employee has fully consummated a sales transaction
or the transfer of title to property.” Id. at 229. It
instead held that a doctor’s “nonbinding commitment”
sufficed. 567 U.S. at 165 (emphasis added). The sales
representatives likewise did not have the ability to
bind their companies to sell prescription drugs to
patients. The patients instead bought the drugs from
separate entities—pharmacies. See id. at 167 & n.24.
My colleagues say we may disregard Christopher
because of the “unique” regulatory environment for
prescription drugs. The plaintiff in Flood made this
argument too. I find it no more persuasive than the
Second Circuit did: “Christopher does not . . . suggest
that its reasoning and interpretation of the statute
and regulations lack general applicability to other
cases[.]” 904 F.3d at 231. And the plaintiffs point to
nothing in the “energy industry that should warrant a
more restrictive application of the term ‘making
sales[.]’” Id. They also point to nothing in the text that
draws this regulated-nonregulated line. Either
nonbinding commitments count or they do not.
The majority also suggests that Killion v. KeHE
Distributors, LLC, 761 F.3d 574 (6th Cir. 2014),
supports its narrow view of Christopher. But Killion
did not address whether employees must have
authority to bind employers. It addressed which of two
sets of employees made sales. KeHE, a distributor of
food to retailers, treated its “sales representatives” as

App-50
exempt. 761 F.3d at 577-78. But the historical facts
could be read to suggest that it was the “account
managers” who “determine[d] which products will be
sold in the chain stores and who [were] responsible for
growing sales[.]” Id. at 584. Those facts also could be
read to suggest that the sales representatives merely
stocked the shelves of the retailers and ordered new
product when the stores depleted their inventories. Id.
at 578. Under this view of the facts, the
representatives were mere “promoters” facilitating the
account managers’ sales. See 1940 Report, at 46;
Killion, 761 F.3d at 585; Wirtz, 418 F.2d at 261. Here,
by contrast, no other employees “really” persuaded
residents to contract with Just Energy. It was the
plaintiffs who did so.
My colleagues also compare this case to the Tenth
Circuit’s decision in Clements. There, the court held
that a company’s civilian employees who recruited
soldiers for the U.S. Army did not “make sales” as a
matter of law. 530 F.3d at 1229. Clements reasoned
that the recruiters did not obtain an “order or
contract” to enlist and “merely cultivated ‘a list of
persons who seem[ed] receptive to the idea’ of joining
the Army.” Id. at 1228 (quoting Wirtz, 418 F.2d at
260). I agree that Clements relied on the fact that the
recruiters lacked the authority to “enlist a recruit” into
the Army—authority reserved to the Army itself. Id.
at 1229. But if Clements relied on the nonbinding
nature of any commitment from recruits, its logic does
not survive Christopher’s holding that a “nonbinding
commitment” counts. 567 U.S. at 165. Notably,
Christopher did not mention this aspect of Clements
when distinguishing it, explaining that the case
“concerned employees who were more analogous to

App-51
buyers than to sellers.” Id. at 168. The “more
fundamental reason” recruiters are not salespeople “is
that the activity of recruiting employees is not ‘sales’”;
recruiters help the Army buy services. Clements, 530
F.3d at 1231 (McConnell, J., concurring). Clements
also relied on the overruled principle that the
exemption should be “narrowly construed.” Id. at 1227
(majority op.) (citation omitted). Here, the plaintiffs
sell energy and we must give the exemption a fair
reading, not a narrow one. See Encino, 138 S. Ct. at
1142.
While mistakenly relying on far-afield decisions,
the majority fails to distinguish the case directly on
point—Flood. My colleagues agree that Flood found a
similar Just Energy employee covered because he
obtained commitments to buy. Maj. Op. 11-12. But
they distinguish Flood because the plaintiff was less
controlled and made more money. Id. at 12-13. These
differences do not matter. Under Flood’s test, the
plaintiffs are exempt because they obtain
commitments to buy. Indeed, the customer
agreements in that case gave Just Energy the same
“discretion” to reject agreements that exists in this
one. See Ex. M, Flood v. Just Energy Mktg. Corp., No.
7:15-cv-02012 (S.D.N.Y. Feb. 8, 2016), ECF No. 66-35.
And the outside-sales exemption contains no salary
requirement. “[T]he regulations do not indicate that a
court should consider a salesman’s effective
compensation in determining whether the exemption
applies.” Meza v. Intelligent Mexican Mktg., Inc., 720
F.3d 577, 586 (5th Cir. 2013). From the beginning, the
Department of Labor has recognized that there is no
“salary qualification” even though outside salespeople

App-52
often can earn little in a week. 1940 Report, at 52. In
short, we are creating a clear circuit split.
External Indicia. The district court also held that
the plaintiffs do not bear all of the “external indicia” of
salespeople that Christopher used to find
pharmaceutical sales representatives exempt. Hurt,
92 F. Supp. 3d at 690-92. It wrongly relied on these
indicia. The indicia might qualify employees for this
exemption even if the employees’ duties fall outside
the ordinary meaning of “sales” work. But they cannot
disqualify employees like the plaintiffs who have
duties falling squarely within that ordinary meaning.
Both text and precedent again support my view.
As for the text, “no such listing of indicia appears
in the relevant regulation defining what it means for
an employee to be ‘making sales.’” Flood, 904 F.3d at
233. If an employee is indisputably “making sales”
(say, for example, by going door-to-door to convince
residents to buy a product on the spot), that employee
falls within the exemption without more. 29 C.F.R.
§ 541.500(a)(1)(i). It cannot matter that an employee
has no sales experience or that the employer
supervises this work. To add such implied conditions
on top of the express text would “disregard” basic
“rules of statutory interpretation.” Food Mktg. Inst. v.
Argus Leader Media, 139 S. Ct. 2356, 2364 (2019). In
my view, the text instead reserves these “indicia” for
atypical sales work. The definition of “sale” contains a
vague catchall (“other disposition”) and is nonexhaustive because it begins with “includes.”
Christopher, 567 U.S. at 162-64. So the definition can
plausibly reach some arrangements that would not
ordinarily be understood as “sales.” How should courts

App-53
go about deciding whether atypical arrangements
qualify as “sales” under the broad definition? It seems
to me the text permits courts to use these external
indicia of outside salespeople to differentiate
nontraditional sales that fall within the exemption
from those that do not.
As for precedent, both Christopher and Flood
support this distinction. On the one hand, Flood shows
that plaintiffs cannot use the external indicia to
disqualify employees who otherwise fall within the
exemption. Flood, 904 F.3d at 233-35. It recognized
that the plaintiff there (like the plaintiffs here) did not
satisfy one external indicia of outside sales work—lack
of supervision—because he “had to work prescribed
hours,” “was driven to and from pre-selected locations
by company personnel,” “had to abide by a company
dress code,” and “had to use a company sales script.”
Id. at 234. But this supervision did not change the fact
that he made sales under the regulation’s plain text.
Id. And that text did not permit the court “to add a
‘subject to supervision’ exception to the ‘making sales’
requirement[.]” Id. at 235. The same logic applies
here.
On the other hand, Christopher shows that the
external indicia can be used to cover transactions that
would not otherwise be considered “sales.” An
employee’s effort to obtain a “nonbinding commitment
from a physician to prescribe” a drug falls well outside
the ordinary meaning of “sales.” 567 U.S. at 165. So
the Court relied on the broad “other disposition”
catchall to find that effort covered. Id. at 164-65. When
doing so, it relied on these “external indicia” to confirm
that the pharmaceutical sales representatives were

App-54
exempt. Id. at 165-66. Here, however, there is no need
to rely on the external indicia because the plaintiffs’
work falls squarely within “making sales.” These
“indicia” are irrelevant in this case.
For these reasons, I would reverse the district
court’s judgment and direct it to enter a judgment for
Just Energy on remand. I thus respectfully dissent.

App-55
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________
No. 18-4058
________________
DAVINA HURT AND DOMINIC HILL, individually and on
behalf of all others similarly situated,
v.

Plaintiffs-Appellees,

COMMERCE ENERGY, INC., doing business as Just
Energy doing business as Commerce Energy of Ohio,
Inc.; JUST ENERGY MARKETING CORP.; JUST ENERGY
GROUP, INC.,
Defendants-Appellants.
________________
Filed: Sept. 30, 2020
________________
Before: CLAY, STRANCH, MURPHY,
Circuit Judges.
________________
ORDER
________________
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has

App-56
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied. Judge Murphy
would grant rehearing for the reasons stated in his
dissent.
ENTERED BY ORDER OF
THE COURT
[handwritten: signature]
Deborah S. Hunt, Clerk

App-57
Appendix C
UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF OHIO
________________
No. 12-cv-00758
________________
DAVINA HURT AND DOMINIC HILL, individually and on
behalf of all others similarly situated,
v.

Plaintiffs,

COMMERCE ENERGY, INC., doing business as Just
Energy doing business as Commerce Energy of Ohio,
Inc.; JUST ENERGY MARKETING CORP.; JUST ENERGY
GROUP, INC.,
Defendants.
________________
Filed: Mar. 10, 2015
________________
OPINION & ORDER
________________
JAMES S. GWIN, UNITED STATES DISTRICT
JUDGE:
This is a case about minimum wage and overtime
pay under the Fair Labor Standards Act (“FLSA”) 1
and overtime pay under the Ohio Minimum Fair Wage
Standards Act (“Ohio Wage Act”). 2 Plaintiffs are door1

29 U.S.C. § 201 et seq.

2

Ohio Rev. Code § 4111.01 et seq.

App-58
to-door workers who solicited residential customers
for the Defendants’ energy services.
Following a trial on the merits, a jury found
Defendants liable for violations of the FLSA and the
Ohio Wage Act. 3 Defendants now renew the motion for
judgment as a matter of law they made at trial. In the
alternative, Defendants move for a new trial, or to
certify an interlocutory appeal of the liability phase of
the trial. For the following reasons, the Court
DENIES the motion for judgment as a matter of law,
DENIES the motion for a new trial, and DENIES the
motion to certify an interlocutory appeal.
I.

Background

The Court has previously issued an opinion
detailing the factual background of this case and
incorporates that background by reference. 4 In short,
Defendants sell electricity and natural gas to
residential and commercial customers in the United
States and Canada. Under Defendant’s selling
scheme, Plaintiffs would go door to door to obtain
applications from potential customers. An application
could then become final contract after a verification
call between the customer and a third-party verifier
and after the Defendant found the customer’s credit
satisfactory. Plaintiffs were paid commission for every
finalized contract; if an application was rejected for
any reason before the contract became final, the
employee would not be paid.

3 See Doc. 808. Throughout this opinion, citations to the draft
trial transcript will be abbreviated as “Tr. [date] at [page]:[line].”
4

See Doc. 89 at 1–6.

App-59
Plaintiffs brought suit, alleging this commissionbased compensation system deprived them of
minimum wage and overtime. Two classes were
certified: a nationwide FLSA collective action seeking
minimum wage and overtime under federal law, and a
Rule 23 class action seeking overtime under Ohio law.
Against these claims, Defendants argued that
Plaintiffs were exempt from overtime and minimum
wage requirements because of the “outside
salesperson” exemption.
The Court held a trial on Defendants’ liability
from September 29, 2014, to October 6, 2014. 5
At the close of Plaintiffs’ case, Defendants moved
for judgment as a matter of law 6 on two grounds. First,
Defendants argued that the Ohio “Badge Never Used”
(“BNU”) group of employees—those who attended at
least one day of training but never obtained a
completed application from a customer—had not
established that any member of the group had worked
more than forty hours in a week, and thus had failed
to prove their claim for overtime wages. 7 Second,
Defendants argued that Plaintiffs’ evidence
The Court bifurcated the proceedings into a liability phase
and a damages phase. Doc. 731.
5

Defendants styled these oral motion as seeking “directed
verdicts.” The terminology of the Federal Rules of Civil Procedure
regarding “directed verdict” and “judgment notwithstanding the
verdict” (also called “j.n.o.v.”) was updated in 1991 so that all
such motions are now simply called “judgment as a matter of
law.” See 9B Wright & Miller, Federal Practice & Procedure Civil
§ 2521, at nn. 7, 13–19 & accompanying text (3d ed. 2014) (citing
Fed. R. Civ. P. 50(a) Advisory Committee Note to 1991
Amendments).
6

7

Tr. 10/1/2014 at 183:24–185:23.

App-60
established that Plaintiffs were exempt outside
salespeople. 8 The Court denied both motions, finding
there was sufficient evidence for both issues to go to
the jury.
At the close of Defendants’ case, Defendants and
Plaintiffs cross-moved for judgment as a matter of law
regarding the application of the outside salesperson
exemption. 9 The Court denied both motions.
Defendants also raised several objections to the
jury instructions. Relevant to this motion, they argued
that the Court erred in instructing the jury that it
could consider whether the applications obtained by
Plaintiffs were binding commitments in deciding
whether the transactions were “sales” for purposes of
the FLSA. 10
Finally, Defendants also object to the Court twice
instructing the jury during the trial that an
employment contract cannot waive FLSA minimum
wage and overtime requirements if those
requirements would otherwise apply. 11
II. Judgment as a Matter of Law
Defendants renew their motion for judgment as a
matter of law. They raise three issues, which will be
addressed in turn. First, that there was insufficient
evidence that the Plaintiffs qualified for the outside
salesperson exemption. Second, that no evidence
8

Id. at 186:6–186:19.

9

Tr. 10/6/2014 at 21:10–21:20.

10 Doc. 804 at 3–7; Tr. 10/2/2014 at 165:25–167:5; Tr. 10/6/2014
at 7:23–9:25.
11

Doc. 810-1 at 5–6.

App-61
supports the inference that any BNU group member
worked more than 40 hours in any week. And third,
that the Court’s instruction to the jury that the
minimum wage requirements of the FLSA cannot be
waived prejudiced their case. All three arguments
lose.
Before moving on to the merits of this motion, the
Court pauses to chastise both sides for their complete
and utter failure to cite to the trial record or admitted
exhibits in their briefing. 12 Judge Easterbrook once
wrote, regarding summary judgment, that, “[d]istrict
judges are not archaeologists. They need not excavate
masses of papers in search of revealing tidbits—not
only because the rules of procedure place the burden
on litigants, but also because their time is scarce.” 13
The same goes for post-trial motions. When the issues
all relate to what happened at trial, the parties should
point to specific evidence that appears in the record to
support their positions, rather than relying on
generalized statements and their own (occasionally
faulty) memories as they did here. In the future, both
parties and their counsel would do well to respect the
Court’s limited resources and not force it to do their
jobs for them.
A. Legal Standard

A motion for judgment as a matter of law under
Rule 50(a) requires the trial court to decide “whether
In fact, the Court has learned from the court reporter that
neither side has ever even bothered to obtain a transcript of the
trial, other than of counsel’s opening statements.
12

13 Nw. Nat’l Ins. Co. v. Baltes, 15 F.3d 660, 662–63 (7th Cir.
1994).

App-62
there was sufficient evidence presented to raise a
material issue of fact for the jury.” 14 The Court “must
view the evidence in the light most favorable to the
party against whom the motion is made, and give that
party the benefit of all reasonable inferences.” 15
“‘[S]ufficient evidence’ will be found unless, when
viewed in the light of those inferences most favorable
to the nonmovant, there is either a complete absence
of proof on the issues or no controverted issues of fact
upon which reasonable persons could differ.” 16 The
Court neither weighs the evidence, evaluates the
credibility of the witnesses, nor substitutes its
judgment for that of the jury. 17
B. Analysis
1.

Outside Sales Exemption

Defendants first argue that they should receive
judgment as a matter of law because Defendants
established, and Plaintiffs failed to rebut, that
Plaintiffs meet the definition of outside salespeople. 18
While Defendants’ motion largely objects to the
contents of the jury instructions themselves, which is
discussed in more detail below, Defendants also raise
Monette v. AM-7-7 Baking Co., 929 F.2d 276, 280 (6th Cir.
1991).
14

15 Wayne

v. Village of Sebring, 36 F.3d 517, 525 (6th Cir. 1994).

16 Monette, 929 F.2d at 280; see also Barnes v. City of
Cincinnati, 401 F.3d 729, 736 (6th Cir. 2005) (“Judgment as a
matter of law may only be granted if . . . there is no genuine issue
of material fact for the jury, and reasonable minds could come to
but one conclusion in favor of the moving party.”).
17

Wayne, 36 F.3d at 525.

18

Doc. 810-1 at 2–4.

App-63
arguments regarding the sufficiency of the evidence
that are properly considered on motion for judgment
as a matter of law. 19
Generally, the FLSA requires employers to pay
employees a minimum wage, as well as time-and-ahalf overtime pay when the employee works more than
forty hours in a week. 20 Not all employees, however,
are protected by this requirement. One exception is
that “any employee employed . . . in the capacity of
outside salesman” is not entitled to minimum wage or
overtime. 21 An outside salesperson is “any
employee . . . whose primary duty is . . . making
sales . . . and . . . who is customarily and regularly
engaged away from the employer’s place or places of
business in performing such primary duty.” 22 A “sale,”
in turn, is defined as “any sale, exchange, contract to
sell, consignment for sale, shipment for sale, or other
disposition.” 23 This “include[s] the transfer of title to
An incorrect jury instruction can provide the basis for a
motion for judgment as a matter of law when a pure legal issue
is dispositive as to the outcome of the case. See, e.g., Kladis v.
Brezek, 823 F.2d 1014, 1017 (7th Cir. 1987); accord LibbeyOwens-Ford Co. v. Ins. Co. of N. Am., 9 F.3d 422, 426 (6th Cir.
1993). As the Court will explain, however, the evidence was
sufficient for the jury to have found in favor of Plaintiffs on this
issue regardless of whether the disputed instruction was
included. Thus, it is unnecessary to resolve the correctness of the
jury instructions at this point, and the Court instead reserves
that discussion for its opinion on the motion for a new trial.
19

20

See 29 U.S.C. §§ 206, 207.

21

29 U.S.C. § 213(a)(1).

22

29 C.F.R. § 541.500.

23

29 U.S.C. § 203(k).

App-64
tangible property . . . .” 24 The parties stipulated that
Plaintiffs in this case were customarily and regularly
engaged away from the employer’s place of business. 25
This left for trial only the question of whether
Plaintiffs had the primary duty of making sales.
Defendants say they “presented evidence that
showed Plaintiffs were engaged to make sales as
defined by the statutes and regulations.” 26 But there
was still sufficient evidence for the jury to reach the
opposite conclusion, even without the disputed
instruction regarding the door-to-door workers’ ability
to enter into a binding contract with a customer. When
considering whether Plaintiffs bore the “external
indicia” of outside salespeople—a list of nonexhaustive factors that the jury could consider as part
of the totality of the circumstances—the evidence
could easily support the jury’s verdict. 27
Much of the evidence suggested that Plaintiffs
were not actually outside salespeople. Plaintiffs were
hired without regard to their prior sales experience. 28
29 C.F.R. § 541.501(b). The parties stipulated that the
natural gas and electricity sold by Defendants are tangible
property. See Doc. 818-1 at 14.
24

25

Doc. 763 at 4.

26

Doc. 810-1 at 2.

See Christopher v. SmithKline Beecham Corp., 132 S. Ct.
2156, 2172–73 (2012); see also Doc. 89 at 11–18 (evaluating these
indicia in ruling on a motion for summary judgment).
27

28 E.g., Tr. 9/29/2014 at 113:1–113:4 (“Q. The company doesn’t
require that the plaintiffs have any previous sales experience
before being hired into these positions, correct? A. That would be
correct.”); Tr. 10/1/2014 at 149:2–149:19 (“Q. Am I correct that
these workers who go door-to-door are hired off the street and
there’s no requirement whatsoever of any prior skill [to] get this

App-65
Plaintiffs also presented evidence that Defendants
closely controlled the work schedules and locations of
the vast majority of their door-to-door workers. 29
Witnesses testified that workers would be driven to
residential neighborhoods by supervisors, 30 told which
blocks to canvas, 31 and told how many doors to knock
job? A. Yes. . . . Q. They’re not required to have ever worked doing
any sales, correct? A. Correct.”); cf., e.g., Christopher, 132 S. Ct.
at 2176 (“Petitioners were hired for their sales experience.”).
See, e.g., Nielsen v. DeVry, Inc., 302 F. Supp. 2d 747, 756
(W.D. Mich. 2003).
29

E.g., Tr. 9/30/2014 at 130:13–131:4 (“Q. So they would put
you in a team, and then what happened? A. Then we got into the
van. . . . Q. And did you go out to the neighborhoods at that point?
A. Yes. Q. Who decided which neighborhoods you were going to
go to? A. The crew leader.”); id. at 203:12–204:10, 237:18–239:23
(descriptions from crew leaders regarding their responsibilities,
including driving door-to-door workers to the field); id. at 243:9–
243:13 (“Q. Were [sic] there anybody who drove themselves out
to the field? A. I can only thin[k] of one person who had a second
job, but no, everyone was required to go with the crew leader crew
coordinator in the one car.”); Tr. 10/1/2014 at 40:2–40:22 (crew
coordinator stating that he would “drop [the door-to-door
workers] off on their streets and basically pick them up at 9:00
when we were done . . . .”).
30

E.g., Tr. 9/30/2014 at 67:5–67:17 (“Q. And explain what a
street sheet is? A. A street sheet is just like a sheet that shows
which doors you knocked on.”); id. at 131:2–131:25 (“Q. Then once
you got to the neighborhood did you get to choose which streets
you worked on? A. No. . . . Q. Did they tell you what streets you
were supposed to work on? A. Yes. Q. Did you ever work on a
street that you were not supposed to? A. Yes. Q. And what
happened? A. I got in trouble.”); id. at 204:11–204:24 (“[i]t was
the crew coordinator who generally picked the area.”); Tr.
10/1/2014 at 40:2–40:22 (crew coordinator would assemble
materials for workers, including “contracts, street sheets, maps,
and assigned areas for all the people to position on their streets”).
31

App-66
on per day. 32 Many workers did not control their own
schedules—once a group of door-to-door workers was
taken to the field by a supervisor, they were limited in
when they could take breaks 33 and had to keep
working until the supervisor collected them at the end
of the day. 34 And while working in the field, Plaintiffs
E.g., Tr. 9/30/2014 at 66:23–67:4 (“Q. Once you got to the
neighborhood where you be knocking on [doors], what were your
instructions from the company? A. To [knock] on at least a
hundred doors regardless if you got a deal or not . . . .”); id. at
132:1–132:9 (“Q. How many houses would you go to in a typical
day? A. Anywhere between 150 and 200. Q. Did anybody at Just
Energy tell you you had to go to a certain number of houses per
day? A. Yes.”); id. at 243:14–245:21(“Q. Did you have a quota for
the number of doors you had to knock on? A. Yes. . . . Q. You were
supposed to knock on 50 doors an hour? A. Uh-huh. Yes.”); Tr.
10/1/2014 at 15:7–16:3 (describing office manager calling door-todoor worker, saying “He wanted me to knock faster because I’m
a slow walker and if I don’t get deals he would assume I wasn’t
walking fast enough, and he wanted 200 doors a day”); id. at
44:16–44:18 (“Q. How many houses would you typically go to
during a day? A. Basically we were told to do roughly between
100 to 200 doors every single day.”).
32

E.g., Tr. 9/30/2014 at 67:22–68:9 (“Q. Could you leave on your
own if you wanted to? A. No. Q. What about breaks? Could you
take breaks? A. When they told us it was time to, yes.”); Tr.
10/1/2014 at 14:12–15:3 (“Q. Was there a policy about breaks
when you were out knocking door-to-door? A. .Yes, there was. Q.
And what was that policy? A. Dennis said no breaks. He said,
take a break when you get a deal at the—we were allowed to go
in the customer[‘s] house, but he would say if the customer invites
you in that’s your chance to use their bathroom and ask for some
water. So that was my break.”).
33

34 E.g., Tr. 9/30/2014 at 67:18–67:23 (“Q. How long would you
stay in the neighborhoods as a general proposition? A. From the
time we get there, maybe 10:00, 11:00 from whenever the crew
coordinator comes and picks us up. Q. Could you leave on your
own if you wanted to? A. No.”); id. at 132:24–133:3 (“Q. Did you

App-67
were required to wear clothing or a pin bearing
Defendants’ brand name. 35
Some of the external indicia pointed the other way
as well. Notably, Plaintiffs acknowledge that they
get to decide when you were done knocking on doors for the day?
A. No. Q. Who decided that? The team leader . . . .”); id. at
203:12–204:24 (crew coordinator describing setting daily
schedules); id. at 237:18–239:23 (crew coordinator would pick up
his workers at 8:00 or 9:00 each evening); Tr. 10/1/2014 at 12:25–
13:3 (“Q. What happened after you were done knocking around
9:00? A. I would wait for the van leader to figure out where I was
and come pick me up.”).
E.g., Tr. 9/29/2014 at 164:14–165:4 (reading clothing
regulations from orientation manual (Joint Exhibit 9B)); Tr.
9/30/2014 at 79:5–79:25 (“Q. Were you required to wear any
particular type of clothing? A. Yes. Q. What were you required to
wear? . . . . A. I was required to wear the polo shirt with the Just
Energy logo on it, jackets if needed—well, if it was cold outside
you couldn’t wear your own coat, you had to wear this, something
with the Just Energy logo on it. Hats, badge. That was all part of
the uniform.”); id. at 117:8–117:16 (“Q. Did you have a Just
Energy uniform? A. Yes. I had the polo shirt. . . . Q. Did you have
any other Just Energy clothing or attire? A. No, just my ID and a
pin. That’s about it.”); id. at 140:7–141:1 (“Q. Did Just Energy
require you to wear certain clothing when you were out in the
field? A. Yes. Q. And what kind of clothing was that? A. A shirt.
I had a very heavy jacket, it was November.”); id. at 184:4–185:23
(“Q. What did you wear in the field? A. I had to wear [all their]
clothing, khaki pants, nice shoes, and there was always
the . . . button up shirt. The baseball hat. I also had a knitted hay.
There was a wind breaker coat and a lanyard with your ID on it,
as well.”); Tr. 10/1/2014 at 16:9–16:24 (“Q. Did you have to wear
certain clothing to go out and go door-to-door? A. Yes. Q. And
what was that? A. I had to wear a Just Energy hat, my Just
Energy badge, my Just Energy shirt, dark pants or khakis,
[cargo] shorts maybe, and some decent shoes, comfortable to walk
in, but professional, and when it got cold I had to purchase a Just
Energy skully and a Just Energy fleece.”).
35

App-68
were paid on a commission basis, a factor that
supports Defendant’s argument that Plaintiffs were
outside salespeople. 36
In the end, though, most indicia could have
supported a verdict for either party. Plaintiffs were
given detailed scripts to follow when making a pitch to
a potential customer, and practiced those scripts at
length. 37 While the jury could also have counted this
See, e.g., Christopher, 132 S. Ct. at 2173 (discussing
“incentive compensation”); Doc. 818-1 at 5 (parties stipulated
that “Plaintiffs are compensated on a commission basis and
[Defendants] do not pay overtime for hours worked over 40 hours
per week and do not pay minimum wage in situations where the
commission earned during a particular workweek are insufficient
to ensure that salespersons’ wage rates meet or exceed the
minimum wage.”).
36

E.g., Tr. 9/29/2014 at 169:22–170:2 (“Q. There’s actually
scripts that the company puts together for the plaintiffs on—to
walk through all of this stuff with the homeowner, correct? A.
Yeah, to provide—it’s a guideline, script, but the key points that
the salesperson must touch upon when transacting in that sale.”);
177:18–188:10 (reading the script regarding “objection handling”
(Joint Exhibit 11)); Tr. 9/30/2014 at 11:3–12:12 (“Q. Can you walk
us through the steps you would follow on a typical homeowner
interaction? A. We would knock on the door. As soon as someone
came to the door we would look at our scripts, see what it was we
needed to do and say, when we needed to make eye contact, when
we had to break eye contact, the way we need to stand, things of
that sort. Q. Okay. And again, were those things that you
practiced in the morning meetings, as well? A. Yes. Those are the
things we practiced daily. Q. And who would have given you
instruction that you had to follow the scripts? A. Whoever was in
charge of the office, a regional manager, store manager, or crew
coordinator.”); id. at 62:5–62:9 (“Q. And what were you told about
those sale scripts? A. That it was verbatim that we follow the
script.”); id. at 68:19–69:23 (describing interactions with
homeowners as dictated by the script); id. at 93:21–94:6
37

App-69
in Defendants’ favor as “specialized sales training”
that would support application of the outside sales
exemption, 38 this evidence somewhat points both
ways, as it also indicates their task was not truly
independent selling. Similarly, Plaintiffs were, by the
very nature of their jobs, required to solicit new
customers, which suggests they could have been
outside salespeople. 39 But on the other hand, Plaintiffs
did not independently generate their own leads or

(describing being reprimanded for “not saying the script
verbatim”); id. at 109:13–109:23 (“Q. Describe what those role
playing exercises were like. A. We would read from the script.
They wanted you to do everything on the scripte, and you had to
read it precise.”); id. at 134:7–134:21 (describing interactions
with homeowners as dictated by the script); id. at 147:5–147:24
(recounting that some employees would go off-script when
dealing with reluctant customers); id. at 170:1–172:4 (identifying
that part of the reason for the scripts was to comply with
regulations); Tr. 10/1/2014 at 16:25–17:21 (describing
interactions with homeowners as dictated by the script); id. at
156:2–156:7 (“Q. How did you know what to say at the door? A.
They gave us a script to say that we were supposed to follow.”);
id. at 166:7–166:13 (describing orientation process that included
group practice “going over the script”); id. at 201:16–202:11 (“Q.
Do you expect them to follow sales scripts when they make
presentations to customers? A. Yeah. We—part of the training
process is they do have a presentation script that has been
approved that they usually should follow in the very begin[ning]
stages just to give them a [guideline] of the order of what to say.”);
Tr. 10/2/2014 at 11:11–12:6 (office manager expected salespeople
to use the script “as a guideline” and eventually commit it to
memory); id. at 79:4–79:5 (“Q. You follow the sales script
verbatim, correct? A. Yes, sir.”).
38

See, e.g., Nielsen, 302 F. Supp. 2d at 757.

39

See Nielsen, 302 F. Supp. 2d at 758.

App-70
follow up on their sales, which suggests the opposite. 40
Instead, they would knock on the doors of the houses
they were assigned to, and were prohibited from
returning once the initial and introductory interaction
with the customer was complete. 41
Beyond evaluating these indicia, evidence that
Plaintiffs obtained only non-binding applications from
customers also supports the jury’s decision. 42
Defendants assert that “it is not disputed in the
evidentiary record that binding agreements were
signed by customers.” 43 In fact, this point was very
much disputed at trial. Evidence showed that
Defendants retained “sole discretion” to accept or

40

See id.

E.g., Tr. 9/29/2014 at 194:2–194:17 (“Q. And in fact the
plaintiffs don’t return they’re not allwoed to return to the home
after they’ve handed off that phone. A. If—absolutely that’s
correct. Q. They’re done dealing with the homeowner at that
point. A. Absolutely. Yes.”); Tr. 9/30/2014 at 14:2–14:7 (“Q. Once
you left the home at that point did you have any further
interaction with the customer? A. None whatsoever. Q. Okay. Did
you ever personally follow up with a phone call or make another
return visit, or anything of that sort? A. No.”); id. at 72:8–72:15
(“Q. Once you leave once the phone is passed to the customer, do
you ever return to the home? A. No. Q. Do you ever make any
personal follow up with that customer? A. No. Q. For any
purpose? A. No, not at all.”); id. at 74:5–74:7 (“Q. While an
application was pending were you permitted to return and speak
to the homeowner for any reason? A. No, not at all.”).
41

42 Defendants object that this is an improper factor for the jury
to have considered. The Court addresses that objection below in
Section III.B.1.
43

Doc. 810-1 at 3.

App-71
reject a customer’s application. 44 The applications
obtained by Plaintiffs were merely proposals until
Defendants accepted them. This factor suggests that
Plaintiffs were not actually making sales. 45
Further, this situation is unlike the hypothetical
the Supreme Court offered in Christopher of “a
manufacturer’s representative who takes an order
from a retailer but then transfers the order to a
jobber’s employee to be filled.” 46 The Supreme Court
said that, in such a situation, it would be the
manufacturer’s representative, not the jobber, who
had made the sale. 47 Here, by contrast, Defendants
were not just filling orders obtained by Plaintiffs.
Rather, after receiving a completed application,
Defendants still had to determine whether or not to
accept it. This is far more of an active role in
completing the sale than the straightforward task of
fulfilling an otherwise finalized order.
In short, there was sufficient evidence for the jury
to have found either way on the outside sales

Tr. 9/29/2014 at 187:11–190:5 (reviewing terms and
conditions of contract signed by customers (Joint Exhibit 24)); Tr.
9/30/2014 at 42:1–43:6 (same); Tr. 10/1/2014 at 74:11–75:24
(reviewing terms of Plaintiffs’ commission-based compensation
agreements, which acknowledge Defendants’ “unfettered
discretion to reject any energy contract submitted” (Plaintiffs
Exhibit 6)); id. at 128:14–129:22 (reviewing terms of agreement
with customer, which “is conditional upon acceptance by
[Defendants].” (Joint Exhibit 15)); see also Doc. 89 at 10–11.
44

45

See infra Section III.B.1.

46

Christopher, 132 S. Ct. at 2173–74.

47

Id.

App-72
exemption. Thus, Defendants’ motion for judgment as
a matter of law on this issue loses.
2.

BNU Claims

Defendants’ second ground in moving for
judgment as a matter of law pertains to one particular
group: BNUs (i.e., those employees who attended at
least one day of training, but never received a
completed application from a customer) who have
claims for overtime wages as part of the Rule 23
class. 48 Defendants argue that there is no evidence
that anyone from this group worked more than 40
hours in a week, and thus that Plaintiffs failed to
prove their case that the BNUs are entitled to
overtime wages under Ohio law. 49
Defendants made this motion at trial, and the
Court denied it. 50 Then, as now, there was some
evidence from which the jury could infer that some
members of this group worked enough days to have
racked up 40 hours or more in a week. 51 There was
certainly evidence from which the jury could have

48

Doc. 810-1 at 4–5.

Id.. Similar to the FLSA, Ohio law requires employers to pay
employees time-and-a-half pay for all hours worked in excess of
forty per week. See Ohio Rev. Code § 4111.03.
49

50

Tr. 10/1/2014 at 183:24–186:2.

51 See Tr. 9/29/2014 at 119:19–121:16 (“Q. Are you aware that
there are individuals who worked weeks without earning any
commissions? . . . A. There might be a few.”); Tr. 10/1/2014 at
127:24–128:12 (“Q. How long would [BNUs] typically work? A.
Well, they tried to make it through that first wave, right, so
anywhere from one to three weeks.”).

App-73
reached the opposite conclusion as well. 52 But either
conclusion was reasonable.
Furthermore, the Court has not certified a subclass of BNUs. Plaintiffs presented sufficient evidence
to prove liability on a classwide basis—namely, that
Defendants did not pay their door-to-door workers
minimum wage or overtime and that Plaintiffs were
not exempt outside salespeople. From the time the
class was certified, the Court has recognized that
while liability can be determined on a classwide basis
in this case, damages will more likely need to be done
on an individualized basis. 53 Some members of the
liability class will likely be unable to establish that
they worked enough hours to qualify for overtime.
Defendants will have ample opportunities to challenge
the individual damages claims of BNUs during the
damages phase.
Defendants recognize as much, but argue that
because the parties’ damages experts considered the
BNUs to be a distinct group separate from the rest of
the class, the Court should treat them separately and
order judgment against them. 54 Defendants’ reliance
on the damages experts’ opinions, however, only
supports
Plaintiffs’
position
that
sub-class

52 See Tr. 10/2/2014 at 111:23–112:6 (Q. So have you ever
observed people come in for a day of orientation and never come
back? A. Yes. A lot. . . . Q. And have you ever seen people go out
to the field for just a day and never come back? A. Oh, yeah, all
the time.”).
53

See Doc. 88; Doc. 719 at 7.

54

Doc. 818 at 9.

App-74
certification is an issue for the damages phase of this
case, not the liability phase.
3.

Prejudice

Defendants also request judgment as a matter of
law because the Court instructed the jury that
employees cannot waive their rights under the
FLSA. 55 The merits of this argument are discussed
below as they relate to Defendants’ motion for a new
trial. For the purposes of Defendants’ motion for
judgment as a matter of law, it is sufficient to note that
Defendants never based their Rule 50(a) motions at
trial on this ground. 56 A Rule 50(b) motion for
judgment as a matter of law merely renews a prior
motion, and thus “can be granted only on grounds
advanced in the preverdict [Rule 50(a)] motion.” 57 To
the extent this argument is even cognizable as part of
a Rule 50 motion—which is doubtful, as it does not
involve any questions that the jury could have
resolved—Defendants have forfeited it.
III. New Trial
In the alternative to judgment as a matter of law,
Defendants move for a new trial on two grounds. First,
that the jury instructions erred by including language
about the authority of a salesperson to create a
binding contract. And second, that the Court erred by
instructing the jury that the minimum wage and
55

Doc. 810-1 at 5–6.

See Tr. 10/1/2014 at 183:20–186:20 and Tr. 10/6/2014 at
19:18–22:5 for Defendants’ other grounds in moving for judgment
as a matter of law.
56

57 Fed. R. Civ. P. 50(b) Advisory Committee Note to 2006
Amendment.

App-75
overtime requirements of the FLSA cannot be waived.
Both arguments lose.
A. Legal Standard
Under Federal Rule of Civil Procedure 59(a), “[a]
new trial may be granted . . . in an action in which
there has been a trial by jury, for any of the reasons
for which new trials have heretofore been granted in
actions at law in the courts of the United States.”
Generally courts have interpreted this
language to mean that a new trial is
warranted when a jury has reached a
‘seriously erroneous result’ as evidenced by:
(1) the verdict being against the weight of the
evidence; (2) the damages being excessive; or
(3) the trial being unfair to the moving party
in some fashion, i.e., the proceedings being
influenced by prejudice or bias. 58
B. Analysis
1.

Binding Sales and State Regulations

Defendants’ primary objection in this motion is
that the jury instructions regarding what constitutes
a “sale” for purposes of the FLSA were incorrect. 59
Jury instructions must “adequately inform the jury of
relevant considerations and provide a basis in law for
aiding the jury to reach its decision.” 60 Jury
58 Holmes v. City of Massillon, 78 F. 3d 1041, 1045–46 (6th Cir.
1996).
59

See Doc. 818-1 at 14–15.

60 King v. Ford Motor Co., 209 F.3d 886, 897 (6th Cir. 2000)
(quoting Gafford v. Gen. Elec. Co., 997 F.2d 150, 166 (6th Cir.
1993)) (internal quotation marks omitted).

App-76
instructions that, when “viewed as a whole, were
confusing, misleading, or prejudicial” require a new
trial. 61 But mere error in the jury instructions does not
itself require a new trial if the error is harmless. 62
At the close of the trial, the Court instructed the
jury that Plaintiffs would be exempt outside
salespeople if they had a primary duty of making
sales. The Court explained:
Within the meaning of the Fair Labor
Standards Act, “sale” or “sell” includes an
“sale, exchange, contract to sell, consignment
for sale, shipment for sale, or other
disposition,” as well as “the transfer of title to
tangible property.” In this case, both parties
agree that natural gas and electricity are
tangible property. Your decision should be a
functional, rather than formal, inquiry, one
that views an employee’s responsibilities in
the context of the particular industry in
which the employee works.
In determining whether a particular
transaction qualifies as a sale for purposes of
the Fair Labor Standards Act, you are
required to consider the extent to which the
employee has the authority to bind the
company to the transaction at issue.
However, when governmental regulatory
See Benaugh v. Ohio Civil Rights Comm’n, 278 F. App’x 501,
513–14 (6th Cir. 2008).
61

62 Troyer v. T.John.E. Prods., Inc., 526 F. App’x 522, 525 (6th
Cir. 2013) (citing Barnes v. Owens-Corning Fiberglas Corp., 201
F.3d 815, 822 (6th Cir. 2000)).

App-77
requirements limit an employee’s ability to
bind his employer, compliance with those
governmental regulatory requirements do not
disqualify the transaction from constituting a
sale for purposes of the outside salesperson
exemption.
The various laws of the states where
Plaintiffs worked, among other things,
require retail electric and gas services
establish reasonable and non-discriminatory
creditworthiness standards and allows retail
electric and gas services to require a deposit
or other reasonable demonstration of
creditworthiness from a customer as a
condition of providing service. However, none
of the laws of any of these states require retail
electric and/or gas services to conduct a credit
check.
On the other hand, if the employer retains
and/or exercises discretion to accept and/or
reject any transaction for reasons that are
unrelated to regulatory requirements
applicable to the industry, the transaction
should not be considered a sale for purposes
of the Fair Labor Standards Act.
You may, but are not required to, also
consider certain factors or indicia that tend to
suggest that Plaintiffs were primarily
engaged in making sales. The touchstone for
making a sale is obtaining and giving a
commitment to provide the gas or electricity.
No single one of these factors is dispositive,
nor is this an exhaustive list of factors you

App-78
may consider. You should look at these, or
other, factors together and ask whether,
under the totality of the circumstances, they
suggest Plaintiffs were actually engaged in
making sales.
Factors you may consider include:
(1) The extent to which the job was
advertised as a sales position and the
employee was recruited based on sales
experience and abilities.
(2) The extent to which the employee
received specialized sales training.
(3) The extent to which the employee is
compensated based wholly or in
significant part on commissions.
(4) The extent to which the employee
has the responsibility of independently
soliciting new business.
(5) The extent to which the employee is
directly supervised in carrying our his or
her job duties.
(6) Other factors that have been
discussed in this case as circumstantial
evidence that the employees were or were
not engaged in making sales. 63
Specifically, Defendants say the Court erred in
telling the jury that, when deciding whether Plaintiffs
were making “sales,” the jury should consider the
extent of the employee’s ability to bind the company to
the transaction and whether any government
63

Doc. 818-1 at 14–16.

App-79
regulations prohibited the employee from making a
final sale. 64 Defendants also say the Court’s summary
of Ohio law was incorrect, because they view the
regulations as requiring credit checks of potential
customers before finalizing contracts. 65
In its summary judgment opinion, the Court
explained in detail that the non-binding nature of the
applications Plaintiffs obtained from customers is
relevant to whether Plaintiffs were making sales
within the meaning of the FLSA. 66 The Court also
explained at trial its conclusion that Ohio law does not
require Defendants to do credit checks that would
have prevented Plaintiffs from obtaining binding
contracts. 67
In Christopher v. SmithKline Beecham Corp., the
Supreme
Court
found
that
pharmaceutical
representatives were exempt outside salespeople even
though they did not actually accomplish “sales” of
drugs to patients. 68 Because Congress meant to define
sales broadly to “accommodate industry-by-industry
variations in methods of selling commodities,” 69 the
64

See Doc. 810-1 at 2–4.

Doc. 810-1 at 3; Doc. 818 at 8–9. Defendants have not raised
any objection to the Court’s instructions with respect to the laws
of other states at issue, and in their briefing at trial only directly
addressed Ohio’s regulations. See Doc. 795. Because Defendants
have not objected to the Court’s instructions on the basis of any
other state’s laws, the Court will consider only the Ohio
regulations in this opinion.
65

66

See Doc. 89 at 8–11.

67

Tr. 10/2/2014 at 32:9–44:3.

68

Christopher, 132 S. Ct. at 2159.

69

Id. at 2171.

App-80
Supreme Court said that courts should consider the
impact of regulatory requirements as to whether
certain transactions “are tantamount, in a particular
industry, to a paradigmatic sale of a commodity.” 70
Thus, because federal regulations prevented the
pharmaceutical representatives from engaging in the
actual sale of drugs to the patient, the Supreme Court
found it was enough that the representatives
“promoted” sales to doctors who in turn made
“nonbinding commitments” to prescribe the drugs to
their patients. 71
Other courts that have considered situations
where employees obtained only non-binding
commitments have concluded that the employees were
not necessarily making sales. In Clements v. Serco, the
Tenth Circuit held that Army recruiters were not
exempt outside salespeople in part because they
lacked the authority to enlist a recruit; instead, they
were merely “cultivat[ing] a list of persons who
seemed receptive to the idea of joining the Army,” and
the Army retained discretion as to whether or not to
actually accept the applicant. 72 Similarly, in Wirtz v.
Keystone Readers, the Fifth Circuit held that “student
salesmen” who “obtain[ed] orders” for magazine
subscriptions by door-to-door solicitation were not
making sales because, once again, they effectively only
gathered lists of interested customers, and no contract
became final until the employer verified the order and
70

Id. at 2171-72.

71

Id. at 2172.

72 Clements v. Serco, Inc., 530 F.3d 1224, 1225–28 (10th Cir.
2008) (internal quotation marks and citation omitted).

App-81
the customer’s qualifications. 73 In Burling v. Real
Stone Source, LLC, the District of Idaho concluded
that even an employee who negotiated and drafted
sales proposals with customers, as well as conducting
other promotional activities designed to facilitate
sales, was not making sales because the employer
retained the final discretion to approve or reject any
given proposal. 74 And unlike the situation in Nielsen
v. Devry, Inc., where the Western District of Michigan
found that “field representatives” who guided
applicants through the process of being admitted and
matriculating to DeVry University were engaged in
sales, the interactions between Plaintiffs and
potential customers in this case ended before the
transaction was “consummated,” and Plaintiffs were
prohibited from following up with customers to ensure
the sales were completed. 75
The distinguishing characteristic in Christopher
was that the pharmaceutical representatives were
legally prohibited from actually selling drugs to
patients. Because of the regulatory scheme, the best
the pharmaceutical representatives could do was to
promote drugs to doctors, who would in turn prescribe
them to patients. Thus, while making a sale for the
purposes of the FLSA does not necessarily require a
transfer of title, the alleged selling activity must be
viewed in the context of the particular industry at
issue—including whether the industry is subject to a
73 Wirtz v. Keystone Readers Serv., Inc., 418 F.2d 249, 259–61
(5th Cir. 1969).
74 Burling v. Real Stone Source, LLC, No. CV-08-43-E-EJL,
2009 WL 1812785, at *3–7 (D. Idaho June 24, 2009).
75

See Neilsen, 302 F. Supp. 2d at 754–60.

App-82
“unique regulatory environment”—and the jury must
determine whether within that particular industry,
the employee has the job of making “arrangements
that are tantamount . . . to a paradigmatic sale of a
commodity.” 76 Indeed, the Sixth Circuit has recently
distinguished Christopher on just this issue, finding
that Christopher is not necessarily controlling outside
of a situation where obtaining only a “nonbinding
commitment” is the result of a “unique regulatory
environment.” 77
Unlike the pharmaceutical representatives in
Christopher, the Plaintiffs in this case were not
prohibited from completing a contract by state or
federal regulations. Ohio law did not require
Defendants to retain unlimited rejection authority.
Ohio regulations also do not require an energy
supplier to conduct a credit check, only for it to
“establish
reasonable
and
nondiscriminatory
creditworthiness standards.” 78 By contrast, the energy
supplier only “may require a deposit or other
reasonable demonstration of creditworthiness from a
customer as a condition of providing service.” 79 The
Christopher, 132 S. Ct. at 2171–72; see also id. at 2172 n.23
(“[W]hen an entire industry is constrained by law or regulation
from selling its products in the ordinary manner, an employee
who functions in all relevant respects as an outside salesman
should not be excluded from that category based on
technicalities.”).
76

77 Killion v. KeHE Distribs., LLC, 761 F.3d 574, 583–84 (6th
Cir. 2014).
78 Ohio Admin. Code 4901:1-21-07; Ohio Admin. Code 4901:129-07.
79 Ohio Admin. Code 4901:1-21-07; Ohio Admin. Code 4901:129-07 (emphasis added).

App-83
regulations contemplate that an energy supplier could
require a satisfactory credit check before initiating
service, but is not required to do so. It could use some
other method, such as accepting a deposit.
The jury instructions on this point say nothing
different. The Court explained to the jury that state
laws required Defendants to establish reasonable and
non-discriminatory creditworthiness standards, but
that they did not require Defendants to conduct a
credit check. 80 This instruction is entirely consistent
with the statutory language. It was then up to the jury
to decide, based on the evidence presented, how this
regulatory environment impacted whether Plaintiffs
were “making sales.”
The instructions did not require the jury to find
for either side. The instructions merely listed
numerous factors that the jury could consider to
decide whether Plaintiffs had the primary duty of
making sales, and among those factors were whether
Plaintiffs obtained binding contracts and whether any
regulatory environment prevented them from doing
so. The instructions also specified other factors that
the jury could consider in order to reach a conclusion
based on the totality of the circumstances. 81 Given the
relevant statutes, regulations, and case law, the jury
instructions on these issues “adequately inform[ed]
the jury of relevant considerations and provide[d] a
basis in law for aiding the jury to reach its decision.” 82

80

Doc. 818-1 at 15.

81

Id. at 15–16.

82

King, 209 F.3d at 897 (internal quotation marks omitted).

App-84
2.

Waiver of FLSA Rights

Defendants also request a new trial because the
Court instructed the jury that employees cannot waive
their rights under the FLSA. 83 “In a trial by jury in a
federal court, the judge is not a mere moderator, but
is the governor of the trial for the purpose of assuring
its proper conduct and of determining questions of
law. . . .” 84 When counsel for either party makes an
argument that is improper, the trial judge may step in
to ensure the integrity of the proceedings. 85 However,
conduct by a judge that shows “outright bias or
belittling of counsel,” or a trial that is “infected with
the appearance of partiality” can require a new trial. 86
The jury in this case was instructed at the close of
trial:
The right to receive minimum wage and
overtime compensation under the [FLSA]
cannot be waived. In other words, any
agreement between a worker and his
employer that the worker shall not be paid
minimum wage or overtime is not enforceable
if the worker is otherwise entitled to
minimum wage or overtime under the law.
83

Doc. 818 at 10.

84

Quercia v. United States, 289 U.S. 466, 469 (1933).

Cf., e.g., United States v. Young, 470 U.S. 1, 7–10 (1985)
(concluding that a trial judge has the responsibility to “maintain
decorum” in a proceeding by “deal[ing] promptly” with counsel
who make disparaging comments directed at opposing counsel).
85

86 See Nationwide Mut. Fire Ins. Co. v. Ford Motor Co., 174 F.3d
801, 808 (6th Cir. 1999), overruled on other grounds, Adkins v.
Wolever, 554 F.3d 650 (6th Cir. 2009) (en banc).

App-85
However, if a worker is an exempt outside
salesperson, that worker is not entitled to
minimum wage and is not entitled to
overtime compensation for hours worked in
excess of forty hours. 87
Defendants admit that this is a correct statement
of law. 88 They argue, however, that the Court
prejudiced their case by giving the jury this
instruction twice during trial as well as at the close.
The two times the Court had to instruct the jury
on this issue were prompted by statements by defense
counsel. The first time was during Defendants’
opening statement. Defense counsel referred to
advertisements for Plaintiffs’ positions that “fully
disclosed and described . . . exactly how [the
salespeople] were going to get paid,” emphasizing the
commission system and that Plaintiffs had entered
into contracts agreeing to this method of payment. 89
At side-bar, the Court noted its concern with
Defendants’ implication that Plaintiffs’ knowledge of
the commission structure could have some bearing on
whether there was an FLSA violation. 90 Finding that
Defendants’ argument was irrelevant and potentially
confusing, at the request of Plaintiffs, the Court

Doc. 818-1 at 13 (citing Beck v. City of Cleveland, 390 F.3d
912, 923 (6th Cir. 2004)).
87

88 Doc. 810-1 at 5; Doc. 818 at 10; see also Tr. 10/2/2014 at
159:12–160:14.
89

Tr. 9/29/2014 at 90:4–91:8.

90

Id. at 91:12–92:5.

App-86
advised the jury that “an employee cannot waive the
rights to FLSA overtime or minimum wage.” 91
Later on the first day of trial, in response to
defense counsel’s questioning a witness about the
terms of the Plaintiffs’ employment contracts, the
Court once again warned Defendants at a sidebar to
avoid implying that Plaintiffs had somehow waived
their FLSA rights simply because they had agreed to
a commission-based compensation structure. 92 The
Court expressed continuing concern that Defendants
were introducing irrelevant evidence for this
purpose. 93
The second time the Court instructed the jury on
the non-waivability of the FLSA came during the
playback of a video deposition. During this playback,
the witness—Peter Potje, a door-to-door salesman—
testified in response to a question from defense
counsel that he understood the lawsuit to be about
“whether someone who has [signed independent
contractor agreements] might still get paid minimum
wage for time spent.” 94 Plaintiffs objected to this
testimony. 95 Finding Potje’s statements to be not only
improper testimony on a matter of law, but also an
incorrect statement of the law, the Court made a
corrective instruction that an employee cannot agree

91

Id. at 92:6–92:23.

92

Id. at 232:12–234:15.

93

Id.

94

Tr. 10/1/2014 at 233:18–233:25.

95

Id. at 234:2–235:13.

App-87
to waive his rights under the FLSA to minimum wage
and overtime pay. 96
Cases where a trial judge has been found to have
engaged in conduct that requires a new trial have
typically involved a great number of comments that
amount to berating of one party or its counsel. 97 Here,
there is no allegation by Defendants that the Court’s
tone or demeanor expressed bias against Defendants’
position. The allegation is that the Court gave correct
instructions of law. It did so in order to cure improper
or incorrect statements, one made by defense counsel
and one made by a witness. 98 The Court finds no
support for Defendants’ argument that a correct
statement of the law can prejudice a party’s case.
Instead, the cases support the position that the Court
may comment to “ensure that the issues [are] not
obscured, to ensure that testimony [is] not
misunderstood, and to move the case along.” 99 In this
case, the Court’s brief instructions were well within its
96

Id. at 234:19–235:12, 236:9–236:23.

E.g., United States v. Hickman, 592 F.2d 931, 934–36 (6th
Cir. 1979) (When the district judge interjected over 250 times
during the trial using an anti-defendant tone, and then limited
defense cross-examination before taking over cross-examination
himself, “the only impression which could have been left in the
mind of the jury was that the trial judge was a surrogate
prosecutor.”).
97

See, e.g., United States v. Houston, 110 F. App’x 536, 542 (6th
Cir. 2004) (finding no error when the district judge made
statements to the jury to following counsels’ statements
regarding irrelevant legal issues).
98

99 Johnson v. Philip Morris, Inc., 70 F.3d 1272, 1995 WL
704264, at *4–5 (6th Cir. Nov. 29, 1995) (unpublished table
opinion).

App-88
discretion to determine a question of law, ensure the
integrity of the proceedings, avoid confusion of the
issues, and keep the trial moving at a reasonable pace.
Defendants also assert that the Court made
statements to the jury about the lack of a fraud claim
by the Plaintiffs, thereby implanting the term “fraud”
in their heads and biasing the jury against
Defendants. 100 A review of the record, however, shows
that the Court only twice referred to fraud. The first
time the Court mentioned fraud was during a sidebar, 101 which could not possibly have caused any
prejudice to Defendants as it was done outside the
presence of the jury. 102 The second time was in
response to Defendants’ repeated questioning of doorto-door workers about their knowledge of the
commission-based compensation agreements, which
the Court had ruled irrelevant and instructed
Defendants to stay away from. At this time, the Court
instructed the jury that Plaintiffs “[did] not make a
claim that the Defendant[s] defrauded the
Plaintiffs.” 103 The Court’s comment was thus in effect
invited by Defendant by continuing to delve into
matters the Court had ruled irrelevant and possibly
confusing to the jury. Further, if anything, this brief
curative instruction would have helped Defendants, as
100

See Doc. 810-1 at 5–6; Doc. 818 at 10.

101 See Tr. 9/29/2014 at 234:8–234:15 (“THE COURT: I’m not
sure—what do you say I don’t understand? They haven’t brought
a fraud claim and I wouldn’t instruct them, I wouldn’t instruct on
a fraud claim and they haven’t brought a fraud claim.”).
102 See United States v. Middleton, 246 F.3d 825, 849 (6th Cir.
2001); United States v. Morrow, 977 F.2d 222, 225 (6th Cir. 1992).
103

See Tr. 9/30/2014 at 24:17–25:1.

App-89
it instructed the jury not to believe that Defendants
had engaged in fraud. As such, the Court fails to see
how this comment could have prejudiced Defendants’
case.
IV. Interlocutory Appeal
In the alternative, Defendants seek the Court’s
leave to take an interlocutory appeal pursuant to 29
U.S.C. § 1292(b) in order to challenge the correctness
of the jury instructions regarding the outside sales
exemption. 104
A. Legal Standard
Litigants are generally not entitled to appellate
review of court orders prior to a final judgment on the
merits. 105 In “exceptional cases,” however, district
courts may grant parties leave to take interlocutory
appeals. 106 To appeal under § 1292(b), a party must
show: (1) the issue concerns a controlling question of
law; (2) substantial ground for difference of opinion on
that issue exist; and (3) immediate appeal would
materially advance the ultimate termination of the
litigation. 107 “The burden of showing exceptional

104

Doc. 810-1 at 7.

105 Gelboim v. Bank of Am. Corp., 135 S. Ct. 897, 902–03 (2015);
Coopers & Lybrand v. Livesay, 437 U.S. 463, 474–75 (1978).

In re City of Memphis, 293 F.3d 345, 350 (6th Cir. 2002)
(citations omitted); see also 28 U.S.C. § 1292(b).
106

107 Negron v. United States, 553 F.3d 1013, 1015 (6th Cir. 2009);
In re City of Memphis, 293 F.3d at 350.

App-90
circumstances justifying an interlocutory appeal rests
with the party seeking review.” 108
B. Analysis
1.

Controlling Legal Issue

“A legal issue is controlling if it could materially
affect the outcome of the case,” 109 “such as when
‘reversal of the District Court’s Order would terminate
the action.’” 110 Here, Defendants say that the
application of Christopher to the FLSA’s outside
salesperson exemption presents a controlling issue of
law in this case. 111
A resolution of an interlocutory appeal in
Defendants’ favor, however, would not resolve this
case. The question of the outside salesperson
exemption’s applicability is not purely legal and
requires factual findings. Further, with this motion
Defendants challenge only one of the numerous nondispositive factors that the jury was able to consider
when determining whether the exemption applies.
Even if Defendants’ appeal were successful, the
remedy would likely be a retrial. Thus, this factor
weighs against granting the interlocutory appeal.

Trimble v. Bobby, No. 5:10-cv-00149, 2011 WL 1982919, at
*1 (N.D. Ohio May 20, 2011) (citing In re City of Memphis, 293
F.3d at 350).
108

109

In re City of Memphis, 293 F.3d at 351.

110 United States S.E.C. v. Geswein, 2 F. Supp.3d 1074, 1086
(N.D. Ohio. 2014) (quoting Howe v. City of Akron, 789 F. Supp. 2d
786, 810 (N.D. Ohio 2010)).
111

Doc. 810-1 at 9–10.

App-91
2.

Substantial Grounds for Different Opinion

The second factor requires that the Court
determine whether substantial grounds exist for
different opinion on the issue. Substantial grounds for
a difference of opinion exist when “(1) the question is
difficult, novel and either a question on which there is
little precedent or one whose correct resolution is not
substantially guided by previous decisions; (2) the
question is difficult and of first impression; (3) a
difference of opinion exists within the controlling
circuit; or (4) the circuits are split on the question.” 112
Here, Defendants seek to appeal whether the jury
instructions correctly related what factors the jury
could consider in determining whether the outside
sales exemption applies. The Court recognizes that
Christopher is a relatively recent decision that has
caused some uncertainty in FLSA litigation.
Nevertheless, the jury instructions were not written
on a blank slate. As already discussed, the Court’s
instructions were based on and consistent with
numerous other cases. And the Sixth Circuit itself has
recently distinguished Christopher based on its
unique facts and circumstances, and determined that
it should not necessarily control other FLSA cases. 113
The legal issues here are not particularly difficult,
nor is there a clear split of authority. Some
disagreement will almost always exist on any given
legal issue, but in this case, the disagreement is not so
In re Miedzianowski, 735 F.3d 383, 384 (6th Cir. 2013)
(citing City of Dearborn v. Comcast of Mich. III, Inc., No. 08–
10156, 2008 WL 5084203, at *3 (E.D. Mich. Nov. 24, 2008)).
112

113

See Killion, 761 F.3d 5at 583–84.

App-92
substantial as to require an immediate decision from
the Sixth Circuit to resolve it. Thus, this factor weighs
against granting the interlocutory appeal.
3.

Material
Advancement
of
Termination of the Litigation

Ultimate

Finally, the Court must consider whether an
immediate appeal would materially advance the
ultimate termination of the litigation. Such
circumstances exist where appellate review could
“appreciably shorten the time, effort, and expense
exhausted between the filing of a lawsuit and its
termination.” 114
The highly fact-intensive nature of the inquiry
required to apply the outside salesperson exemption
almost guarantees that a ruling from the Sixth Circuit
in Defendants’ favor would not terminate this case; at
most, a new trial on liability would have to be held.
The risk that the Court will be reversed at a later date,
rather than immediately, is not unique to this case.
Nor is it unique to this case that Defendants could
possibly win on retrial, thereby making further
proceedings in the district court unnecessary.
This factor works somewhat in Defendants’ favor,
however, since the upcoming damages phase will
require some form of individualized proof of the
number of under-compensated hours worked by each
class member. The Court would not stay the
proceedings during the pendency of the appeal. Thus,
if the Court were to allow the interlocutory appeal as
to the liability phase issues while the damages phase
114 Berry v. Sch. Dist. of City of Benton Harbor, 467 F. Supp.
721, 727 (W.D. Mich. 1978).

App-93
is ongoing, it could somewhat shorten this litigation
overall.
Nevertheless, the resolution of the jury
instruction issues on appeal would not “substantially
alter the course of the district court proceedings.” 115
Even if the appeal were granted, the damages phase
would continue unabated. The only change to come
from an interlocutory appeal would be to require any
retrial on liability to be held sooner rather than later.
The Court therefore finds that this factor also weighs
against granting the interlocutory appeal.
V. Conclusion
For the foregoing reasons, the Court DENIES
Defendants’ motion for judgment as a matter of law,
DENIES Defendants’ motion for a new trial, and
DENIES Defendant’s motion to certify an
interlocutory appeal.
IT IS SO ORDERED
Dated: March 10, 2015
s/ James S. Gwin
JAMES S. GWIN
UNITED STATES
DISTRICT JUDGE

W. Tenn. Chapter of Assoc. Builders & Contractors, Inc. v.
City of Memphis, 138 F. Supp. 2d 1015, 1026 (W.D. Tenn. 2000);
cf. White v. Nix, 43 F.3d 374, 378–79 (8th Cir. 1994) (“When
litigation will be conducted in substantially the same manner
regardless of [the court of appeals’] decision, the appeal cannot be
said to materially advance the ultimate termination of the
litigation.”).
115

App-94
Appendix D
RELEVANT STATUTORY PROVISIONS AND
REGULATIONS
29 U.S.C. § 203(k)
(k) “Sale” or “sell” includes any sale, exchange,
contract to sell, consignment for sale, shipment for
sale, or other disposition.
29 U.S.C. § 213(a)
(a) Minimum wage and maximum hour requirements
The provisions of sections 206 (except subsection (d) in
the case of paragraph (1) of this subsection) and 207 of
this title shall not apply with respect to-(1) any employee employed in a bona fide
executive,
administrative,
or
professional
capacity (including any employee employed in the
capacity of academic administrative personnel or
teacher in elementary or secondary schools), or in
the capacity of outside salesman (as such terms
are defined and delimited from time to time by
regulations of the Secretary, subject to the
provisions of subchapter II of chapter 5 of Title 5,
except that an employee of a retail or service
establishment shall not be excluded from the
definition of employee employed in a bona fide
executive or administrative capacity because of
the number of hours in his workweek which he
devotes to activities not directly or closely related
to the performance of executive or administrative
activities, if less than 40 per centum of his hours
worked in the workweek are devoted to such
activities); or

App-95
(2) Repealed. Pub.L. 101-157, § 3(c)(1), Nov. 17,
1989, 103 Stat. 939
(3) any employee employed by an establishment
which is an amusement or recreational
establishment, organized camp, or religious or
non-profit educational conference center, if (A) it
does not operate for more than seven months in
any calendar year, or (B) during the preceding
calendar year, its average receipts for any six
months of such year were not more than 33 ⅓ per
centum of its average receipts for the other six
months of such year, except that the exemption
from sections 206 and 207 of this title provided by
this paragraph does not apply with respect to any
employee of a private entity engaged in providing
services or facilities (other than, in the case of the
exemption from section 206 of this title, a private
entity engaged in providing services and facilities
directly related to skiing) in a national park or a
national forest, or on land in the National Wildlife
Refuge System, under a contract with the
Secretary of the Interior or the Secretary of
Agriculture; or
(4) Repealed. Pub.L. 101-157, § 3(c)(1), Nov. 17,
1989, 103 Stat. 939
(5) any employee employed in the catching,
taking, propagating, harvesting, cultivating, or
farming of any kind of fish, shellfish, crustacea,
sponges, seaweeds, or other aquatic forms of
animal and vegetable life, or in the first
processing, canning or packing such marine
products at sea as an incident to, or in conjunction
with, such fishing operations, including the going

App-96
to and returning from work and loading and
unloading when performed by any such employee;
or
(6) any employee employed in agriculture (A) if
such employee is employed by an employer who
did not, during any calendar quarter during the
preceding calendar year, use more than five
hundred man-days of agricultural labor, (B) if
such employee is the parent, spouse, child, or
other member of his employer's immediate family,
(C) if such employee (i) is employed as a hand
harvest laborer and is paid on a piece rate basis
in an operation which has been, and is
customarily and generally recognized as having
been, paid on a piece rate basis in the region of
employment, (ii) commutes daily from his
permanent residence to the farm on which he is so
employed, and (iii) has been employed in
agriculture less than thirteen weeks during the
preceding calendar year, (D) if such employee
(other than an employee described in clause (C) of
this subsection) (i) is sixteen years of age or under
and is employed as a hand harvest laborer, is paid
on a piece rate basis in an operation which has
been, and is customarily and generally recognized
as having been, paid on a piece rate basis in the
region of employment, (ii) is employed on the
same farm as his parent or person standing in the
place of his parent, and (iii) is paid at the same
piece rate as employees over age sixteen are paid
on the same farm, or (E) if such employee is
principally engaged in the range production of
livestock; or

App-97
(7) any employee to the extent that such
employee is exempted by regulations, order, or
certificate of the Secretary issued under section
214 of this title; or
(8) any employee employed in connection with
the publication of any weekly, semiweekly, or
daily newspaper with a circulation of less than
four thousand the major part of which circulation
is within the county where published or counties
contiguous thereto; or
(9) Repealed. Pub.L. 93-259, § 23(a)(1), Apr. 8,
1974, 88 Stat. 69
(10) any switchboard operator employed by an
independently owned public telephone company
which has not more than seven hundred and fifty
stations; or
(11) Repealed. Pub.L. 93-259, § 10(a), Apr. 8,
1974, 88 Stat. 63
(12) any employee employed as a seaman on a
vessel other than an American vessel; or
(13), (14) Repealed. Pub.L. 93-259, §§ 9(b)(1),
23(b)(1), Apr. 8, 1974, 88 Stat. 63, 69
(15) any employee employed on a casual basis in
domestic service employment to provide
babysitting services or any employee employed in
domestic service employment to provide
companionship services for individuals who
(because of age or infirmity) are unable to care for
themselves (as such terms are defined and
delimited by regulations of the Secretary); or
(16) a criminal investigator who is paid
availability pay under section 5545a of Title 5;

App-98
(17) any employee who is a computer systems
analyst,
computer
programmer,
software
engineer, or other similarly skilled worker, whose
primary duty is-(A) the application of systems analysis
techniques and procedures,
including
consulting with users, to determine
hardware, software, or system functional
specifications;
(B) the design, development, documentation,
analysis, creation, testing, or modification of
computer systems or programs, including
prototypes, based on and related to user or
system design specifications;
(C) the design, documentation, testing,
creation, or modification of computer
programs related to machine operating
systems; or
(D) a combination of duties described in
subparagraphs (A), (B), and (C) the
performance of which requires the same level
of skills, and
who, in the case of an employee who is
compensated on an hourly basis, is compensated
at a rate of not less than $27.63 an hour; or
(18) any employee who is a border patrol agent, as
defined in section 5550(a) of Title 5; or
(19) any employee employed to play baseball who
is compensated pursuant to a contract that
provides for a weekly salary for services
performed during the league's championship
season (but not spring training or the off season)

App-99
at a rate that is not less than a weekly salary
equal to the minimum wage under section 206(a)
of this title for a workweek of 40 hours,
irrespective of the number of hours the employee
devotes to baseball related activities.
29 U.S.C. § 216
(a) Fines and imprisonment
Any person who willfully violates any of the provisions
of section 215 of this title shall upon conviction thereof
be subject to a fine of not more than $10,000, or to
imprisonment for not more than six months, or both.
No person shall be imprisoned under this subsection
except for an offense committed after the conviction of
such person for a prior offense under this subsection.
(b) Damages; right of action; attorney's fees and costs;
termination of right of action
Any employer who violates the provisions of section
206 or section 207 of this title shall be liable to the
employee or employees affected in the amount of their
unpaid minimum wages, or their unpaid overtime
compensation, as the case may be, and in an
additional equal amount as liquidated damages. Any
employer who violates the provisions of section
215(a)(3) of this title shall be liable for such legal or
equitable relief as may be appropriate to effectuate the
purposes of section 215(a)(3) of this title, including
without limitation employment, reinstatement,
promotion, and the payment of wages lost and an
additional equal amount as liquidated damages. Any
employer who violates section 203(m)(2)(B) of this title
shall be liable to the employee or employees affected
in the amount of the sum of any tip credit taken by the
employer and all such tips unlawfully kept by the

App-100
employer, and in an additional equal amount as
liquidated damages. An action to recover the liability
prescribed in the preceding sentences may be
maintained against any employer (including a public
agency) in any Federal or State court of competent
jurisdiction by any one or more employees for and in
behalf of himself or themselves and other employees
similarly situated. No employee shall be a party
plaintiff to any such action unless he gives his consent
in writing to become such a party and such consent is
filed in the court in which such action is brought. The
court in such action shall, in addition to any judgment
awarded to the plaintiff or plaintiffs, allow a
reasonable attorney's fee to be paid by the defendant,
and costs of the action. The right provided by this
subsection to bring an action by or on behalf of any
employee, and the right of any employee to become a
party plaintiff to any such action, shall terminate
upon the filing of a complaint by the Secretary of
Labor in an action under section 217 of this title in
which (1) restraint is sought of any further delay in
the payment of unpaid minimum wages, or the
amount of unpaid overtime compensation, as the case
may be, owing to such employee under section 206 or
section 207 of this title by an employer liable therefor
under the provisions of this subsection or (2) legal or
equitable relief is sought as a result of alleged
violations of section 215(a)(3) of this title.
(c) Payment of wages and compensation; waiver of
claims; actions by the Secretary; limitation of actions
The Secretary is authorized to supervise the payment
of the unpaid minimum wages or the unpaid overtime
compensation owing to any employee or employees

App-101
under section 206 or section 207 of this title, and the
agreement of any employee to accept such payment
shall upon payment in full constitute a waiver by such
employee of any right he may have under subsection
(b) of this section to such unpaid minimum wages or
unpaid overtime compensation and an additional
equal amount as liquidated damages. The Secretary
may bring an action in any court of competent
jurisdiction to recover the amount of unpaid minimum
wages or overtime compensation and an equal amount
as liquidated damages. The right provided by
subsection (b) to bring an action by or on behalf of any
employee to recover the liability specified in the first
sentence of such subsection and of any employee to
become a party plaintiff to any such action shall
terminate upon the filing of a complaint by the
Secretary in an action under this subsection in which
a recovery is sought of unpaid minimum wages or
unpaid overtime compensation under sections 206 and
207 of this title or liquidated or other damages
provided by this subsection owing to such employee by
an employer liable under the provisions of subsection
(b), unless such action is dismissed without prejudice
on motion of the Secretary. Any sums thus recovered
by the Secretary of Labor on behalf of an employee
pursuant to this subsection shall be held in a special
deposit account and shall be paid, on order of the
Secretary of Labor, directly to the employee or
employees affected. Any such sums not paid to an
employee because of inability to do so within a period
of three years shall be covered into the Treasury of the
United States as miscellaneous receipts. In
determining when an action is commenced by the
Secretary of Labor under this subsection for the

App-102
purposes of the statutes of limitations provided in
section 6(a) of the Portal-to-Portal Act of 1947, it shall
be considered to be commenced in the case of any
individual claimant on the date when the complaint is
filed if he is specifically named as a party plaintiff in
the complaint, or if his name did not so appear, on the
subsequent date on which his name is added as a party
plaintiff in such action. The authority and
requirements described in this subsection shall apply
with respect to a violation of section 203(m)(2)(B) of
this title, as appropriate, and the employer shall be
liable for the amount of the sum of any tip credit taken
by the employer and all such tips unlawfully kept by
the employer, and an additional equal amount as
liquidated damages.
(d) Savings provisions
In any action or proceeding commenced prior to, on, or
after August 8, 1956, no employer shall be subject to
any liability or punishment under this chapter or the
Portal-to-Portal Act of 1947 on account of his failure to
comply with any provision or provisions of this chapter
or such Act (1) with respect to work heretofore or
hereafter performed in a workplace to which the
exemption in section 213(f) of this title is applicable,
(2) with respect to work performed in Guam, the Canal
Zone or Wake Island before the effective date of this
amendment of subsection (d), or (3) with respect to
work performed in a possession named in section
206(a)(3) of this title at any time prior to the
establishment by the Secretary, as provided therein,
of a minimum wage rate applicable to such work.
(e) Civil penalties for child labor violations

App-103
(1)(A) Any person who violates the provisions of
sections1 212 or 213(c) of this title, relating to
child labor, or any regulation issued pursuant
to such sections, shall be subject to a civil
penalty not to exceed-(i) $11,000 for each employee who was
the subject of such a violation; or
(ii) $50,000 with regard to each such
violation that causes the death or serious
injury of any employee under the age of
18 years, which penalty may be doubled
where the violation is a repeated or
willful violation.
(B) For purposes of subparagraph (A), the
term “serious injury” means-(i) permanent loss or substantial
impairment of one of the senses (sight,
hearing, taste, smell, tactile sensation);
(ii) permanent loss or substantial
impairment of the function of a bodily
member, organ, or mental faculty,
including the loss of all or part of an arm,
leg, foot, hand or other body part; or
(iii) permanent paralysis or substantial
impairment that causes loss of movement
or mobility of an arm, leg, foot, hand or
other body part.
(2) Any person who repeatedly or willfully
violates section 206 or 207 of this title, relating to
wages, shall be subject to a civil penalty not to
exceed $1,100 for each such violation. Any person
who violates section 203(m)(2)(B) of this title shall

App-104
be subject to a civil penalty not to exceed $1,100
for each such violation, as the Secretary
determines appropriate, in addition to being
liable to the employee or employees affected for all
tips unlawfully kept, and an additional equal
amount as liquidated damages, as described in
subsection (b).
(3) In determining the amount of any penalty
under this subsection, the appropriateness of such
penalty to the size of the business of the person
charged and the gravity of the violation shall be
considered. The amount of any penalty under this
subsection, when finally determined, may be-(A) deducted from any sums owing by the
United States to the person charged;
(B) recovered in a civil action brought by the
Secretary in any court of competent
jurisdiction, in which litigation the Secretary
shall be represented by the Solicitor of Labor;
or
(C) ordered by the court, in an action brought
for a violation of section 215(a)(4) of this title
or a repeated or willful violation of section
215(a)(2) of this title, to be paid to the
Secretary.
(4) Any administrative determination by the
Secretary of the amount of any penalty under this
subsection shall be final, unless within 15 days
after receipt of notice thereof by certified mail the
person charged with the violation takes exception
to the determination that the violations for which
the penalty is imposed occurred, in which event
final determination of the penalty shall be made

App-105
in an administrative proceeding after opportunity
for hearing in accordance with section 554 of Title
5 and regulations to be promulgated by the
Secretary.
(5) Except for civil penalties collected for
violations of section 212 of this title, sums
collected as penalties pursuant to this section
shall be applied toward reimbursement of the
costs of determining the violations and assessing
and collecting such penalties, in accordance with
the provision of section 9a of this title. Civil
penalties collected for violations of section 212 of
this title shall be deposited in the general fund of
the Treasury.
29 C.F.R. § 541.500
(a) The term “employee employed in the capacity of
outside salesman” in section 13(a)(1) of the Act shall
mean any employee:
(1) Whose primary duty is:
(i) making sales within the meaning of section 3(k)
of the Act, or
(ii) obtaining orders or contracts for services or for
the use of facilities for which a consideration will be
paid by the client or customer; and
(2) Who is customarily and regularly engaged
away from the employer's place or places of
business in performing such primary duty.
(b) The term “primary duty” is defined at § 541.700.
In determining the primary duty of an outside sales
employee, work performed incidental to and in
conjunction with the employee's own outside sales or
solicitations, including incidental deliveries and

App-106
collections, shall be regarded as exempt outside sales
work. Other work that furthers the employee's sales
efforts also shall be regarded as exempt work
including, for example, writing sales reports, updating
or revising the employee's sales or display catalogue,
planning itineraries and attending sales conferences.
(c) The requirements of subpart G (salary
requirements) of this part do not apply to the outside
sales employees described in this section.
29 C.F.R. § 541.501
(a) Section 541.500 requires that the employee be
engaged in:
(1) Making sales within the meaning of section
3(k) of the Act, or
(2) Obtaining orders or contracts for services or
for the use of facilities.
(b) Sales within the meaning of section 3(k) of the Act
include the transfer of title to tangible property, and
in certain cases, of tangible and valuable evidences of
intangible property. Section 3(k) of the Act states that
“sale” or “sell” includes any sale, exchange, contract to
sell, consignment for sale, shipment for sale, or other
disposition.
(c) Exempt outside sales work includes not only the
sales of commodities, but also “obtaining orders or
contracts for services or for the use of facilities for
which a consideration will be paid by the client or
customer.” Obtaining orders for “the use of facilities”
includes the selling of time on radio or television, the
solicitation of advertising for newspapers and other
periodicals, and the solicitation of freight for railroads
and other transportation agencies.

App-107
(d) The word “services” extends the outside sales
exemption to employees who sell or take orders for a
service, which may be performed for the customer by
someone other than the person taking the order.

